<html>
<title> - HOW DOES ILLEGAL IMMIGRATION IMPACT AMERICAN TAXPAYERS AND WILL THE REID-KENNEDY AMNESTY WORSEN THE BLOW?</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
  HOW DOES ILLEGAL IMMIGRATION IMPACT AMERICAN TAXPAYERS AND WILL THE 
                 REID-KENNEDY AMNESTY WORSEN THE BLOW?

=======================================================================

                                HEARING

                               BEFORE THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             AUGUST 2, 2006

                               __________

                           Serial No. 109-135

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov




                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
29-329                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman
HENRY J. HYDE, Illinois              JOHN CONYERS, Jr., Michigan
HOWARD COBLE, North Carolina         HOWARD L. BERMAN, California
LAMAR SMITH, Texas                   RICK BOUCHER, Virginia
ELTON GALLEGLY, California           JERROLD NADLER, New York
BOB GOODLATTE, Virginia              ROBERT C. SCOTT, Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
DANIEL E. LUNGREN, California        ZOE LOFGREN, California
WILLIAM L. JENKINS, Tennessee        SHEILA JACKSON LEE, Texas
CHRIS CANNON, Utah                   MAXINE WATERS, California
SPENCER BACHUS, Alabama              MARTIN T. MEEHAN, Massachusetts
BOB INGLIS, South Carolina           WILLIAM D. DELAHUNT, Massachusetts
JOHN N. HOSTETTLER, Indiana          ROBERT WEXLER, Florida
MARK GREEN, Wisconsin                ANTHONY D. WEINER, New York
RIC KELLER, Florida                  ADAM B. SCHIFF, California
DARRELL ISSA, California             LINDA T. SANCHEZ, California
JEFF FLAKE, Arizona                  CHRIS VAN HOLLEN, Maryland
MIKE PENCE, Indiana                  DEBBIE WASSERMAN SCHULTZ, Florida
J. RANDY FORBES, Virginia
STEVE KING, Iowa
TOM FEENEY, Florida
TRENT FRANKS, Arizona
LOUIE GOHMERT, Texas

             Philip G. Kiko, General Counsel-Chief of Staff
               Perry H. Apelbaum, Minority Chief Counsel


                            C O N T E N T S

                              ----------                              

                             AUGUST 2, 2006

                           OPENING STATEMENT

                                                                   Page
The Honorable F. James Sensenbrenner, Jr., a Representative in 
  Congress from the State of Wisconsin, and Chairman, Committee 
  on the Judiciary...............................................     1
The Honorable Howard L. Berman, a Representative in Congress from 
  the State of California, and Member, Committee on the Judiciary     5

                               WITNESSES

The Honorable Michael D. Antonovich, Mayor, County of Los Angeles
  Oral Testimony.................................................     7
  Prepared Statement.............................................    11
Sheriff Leroy D. Baca, Sheriff, Los Angeles County, California
  Oral Testimony.................................................    21
  Prepared Statement.............................................    22
Mr. Robert Rector, Senior Research Fellow in Domestic Policy 
  Studies, The Heritage Foundation
  Oral Testimony.................................................    24
  Prepared Statement.............................................    26
Mr. Kevin J. Burns, Chief Financial Officer, The University 
  Medical Center Corporation of Tucson, AZ
  Oral Testimony.................................................    48
  Prepared Statement.............................................    49
Professor Wayne Cornelius, University of California San Diego
  Oral Testimony.................................................    53
  Prepared Statement.............................................    54

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Prepared Statement of the Honorable F. James Sensenbrenner, Jr., 
  a Representative in Congress from the State of Wisconsin, and 
  Chairman, Committee on the Judiciary...........................     3

                                APPENDIX
               Material Submitted for the Hearing Record

The Honorable Elton Gallegly, a Representative in Congress from 
  the State of California, and Member, Committee on the Judiciary   103


  HOW DOES ILLEGAL IMMIGRATION IMPACT AMERICAN TAXPAYERS AND WILL THE 
                 REID-KENNEDY AMNESTY WORSEN THE BLOW?

                              ----------                              


                       WEDNESDAY, AUGUST 2, 2006

                  House of Representatives,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2 p.m., in the 
Bayview Ballroom, Bayview Restaurant, Marine Corps Recruitment 
Depot, 3800 Chosen Avenue, San Diego, California, the Honorable 
F. James Sensenbrenner, Jr. (Chairman of the Committee) 
presiding.
    Chairman Sensenbrenner. The Committee on the Judiciary will 
come to order. This is the first of several field hearings that 
the Committee is having on the Reid-Kennedy bill which passed 
the Senate.
    Before starting this hearing out, I would like to introduce 
the Members of Congress who are present here in San Diego.
    I am Congressman Jim Sensenbrenner of Wisconsin, and I am 
Chairman of the House Judiciary Committee.
    To my right are Congressman Elton Gallegly of California, 
Congressman Steve Chabot of Ohio who is the Chairman of the 
Subcommittee on the Constitution of the Judiciary Committee, 
Congressman John Hostettler of Indiana who is the Chairman of 
the Immigration Subcommittee of the Judiciary Committee, 
Congressman Darrell Issa who represents the District up the 
road, Congressman Steve King of Iowa and Congressman Louie 
Gohmert of Texas.
    To my left are Congressman Howard Berman of California, 
Congresswoman Sheila Jackson Lee of Texas, who is the Ranking 
Member of the Immigration Subcommittee, Congressman Brian 
Bilbray of California.
    Now, having made these introductions let me say the 
standard congressional hearing rules apply. And that means that 
there are to be no expressions of support or opposition from 
the audience to anything that the witnesses or the Members of 
the Committee have to say. This is a hearing to get testimony 
and to receive answers to the questions that will be posed by 
Members of the Committee and not a hearing session for people 
on either side of the immigration issue. And it is the Chair's 
contention that if this hearing is to continue, that the rules 
of the House of Representatives apply. And if people in the 
audience do not wish to follow those rules, they will be asked 
to leave so that the hearing can be concluded.
    I would like to ask unanimous consent of the Committee that 
non-Members of the Committee including Mr. Bilbray and 
Congressman Ed Royce who is on his way can participate in this 
hearing and to ask questions of the witnesses. And without 
objection, that is so ordered.
    I would like to also remind the Members of the Committee 
that the 5 minute rule for questioning will apply. And the 
Chair has one of our fancy little machines with the red, yellow 
and green buttons to advise both the witnesses as well as the 
Members of the Committee how the clock is ticking.
    Each of the witnesses will have 5 minutes to provide oral 
remarks, but their submission can be as lengthy as they may 
wish to make. And without objection, all of the witnesses' 
statements will appear in the record in full as submitted and 
they can summarize them at their will during the 5 minutes.
    Today's hearing is the first in a series of the House of 
Representatives Committee on the Judiciary plans to hold 
throughout the month of August and September. Each hearing will 
examine a different aspect of our nation's illegal immigration 
dilemma and also examine whether the Reid-Kennedy bill that has 
been passed by the United States Senate offers a solution, or 
merely exacerbates the problem.
    Today's hearing will focus on the impact that illegal 
immigration has on the pocketbooks of Americans, on the taxes 
that we all have to pay, and the benefits that the Government 
can afford to give us. We will also examine whether the Reid-
Kennedy bill's mass amnesty will cost us even more.
    Most economists agree that illegal immigrants impose a net 
fiscal cost on American Government and American taxpayers. This 
is not because they are illegal immigrants per se, nor does it 
indicate that illegal immigrants contribute nothing to our 
economy. Rather, illegal immigrants represent a net loss to the 
U.S. economy because they generally consume more in Government 
benefits than they pay in taxes.
    In recent years, scholars have attempted to precisely 
determine the fiscal burden of illegal immigrants. Of course, 
they can only offer estimates, but these results are astounding 
and troubling. Relying on data compiled by two of the best 
studies, one conducted by the National Research Council and one 
by the Center for Immigration Studies, it is conceivable that 
over their lifetimes, the estimated 12 million illegal 
immigrants residing in the U.S. today will cost American 
taxpayers over half a trillion dollars. This startling figure 
cannot and should not be ignored as Congress debates the future 
of U.S. immigration policy.
    Certainly the largest single fiscal impact of illegal 
immigrants is the cost to taxpayers of educating their 
children, whether U.S. or foreign-born. The Supreme Court has 
ruled that absent clear instructions from Congress, local 
communities are not permitted to deny elementary and secondary 
education to illegal immigrant children. Nationwide, public 
education costs over $7,700 per student per year. Most illegal 
immigrants with three young children are simply not going to 
pay enough in taxes each year to cover the $23,000 cost of 
educating their children. Additionally, the contribution of 
illegal immigrants to overcrowding in America's schools is a 
growing problem across the United States.
    Another huge fiscal drain is the cost of uncompensated 
health care for illegal immigrant families. The majority of 
illegal immigrants do not have health insurance. As a result, 
hospitals in the southwest border counties of Texas, New 
Mexico, Arizona, and California alone incur costs of $190 
million per year for uncompensated emergency medical treatment 
of illegal immigrants. The California Hospital Association 
worries that care for illegal immigrants could force some 
hospitals into bankruptcy.
    The law enforcement costs of illegal immigration are also 
substantial. Currently, 19 percent of inmates in Federal 
prisons are noncitizens, and in 2003, California spent at least 
$635 million for the incarceration of illegal immigrants.
    Today's hearing will focus on the impact that could be 
expected if most of the illegal immigrants in America were to 
receive amnesty, as proposed in the Reid-Kennedy bill. While 
amnesty to immigrants might be less likely to work off the 
books, it is absolutely essential that we recognize and 
carefully consider the fact that if legalized, they will also 
become eligible for many local, State and Federal welfare 
programs for which they are currently ineligible.
    In addition, under the Reid-Kennedy bill, they will be able 
to collect money from the Social Security Trust Fund based on 
the work they performed while here as illegal immigrants who do 
not get Social Security numbers thus, placing further 
obligations on our already strained Social Security system.
    In terms of the Federal budget alone, the Center for 
Immigration Studies estimates that the cost to taxpayers of 
each illegal immigrant is currently over $2,700 per year. CIS 
further estimates that the blow to American taxpayers will more 
than double from $10 billion to almost $29 billion a year 
should illegal immigrants receive amnesty. Other independent 
estimates will indicate that the costs could be even higher.
    While immigration is an emotional issue for millions of 
Americans, we cannot allow emotion alone to dictate the manner 
in which we respond to this pressing national issue. I believe 
that the American people expect and deserve Members of Congress 
to approach immigration policy in a thoughtful, factual, and 
responsible manner. We will not have met this obligation unless 
we fully understand how our actions will affect the tax burden, 
and access to quality health care, education, and Government 
services, of this generation and future generations of 
Americans. It is my hope that our hearing today will contribute 
to the extensive substantive examination that must inform this 
Committee's and Congress'consideration of these critical 
issues.
    I now recognize the gentleman from California, Mr. Berman 
for an opening statement.
    [The prepared statement of Mr. Sensenbrenner follows:]

  Prepared Statement of the Honorable F. James Sensenbrenner, Jr., a 
 Representative in Congress from the State of Wisconsin, and Chairman, 
                       Committee on the Judiciary

    Good afternoon. Today's hearing is the first in a series that the 
House of Representatives Committee on the Judiciary plans to hold 
throughout the months of August and September. Each hearing will 
examine a different aspect of our nation's illegal immigration dilemma, 
and also examine whether the Reid-Kennedy bill passed by the United 
States Senate offers a solution, or merely exacerbates the problem.
    Today's hearing will focus on the impact that illegal immigration 
has on the pocketbooks of Americans, on the taxes that we all have to 
pay, and the benefits that the government can afford to give us. We 
will also examine whether the Reid-Kennedy bill's mass amnesty will 
cost us even more.
    Most economists agree that illegal immigrants impose a net fiscal 
cost on American government and American taxpayers. This is not because 
they are illegal immigrants per se, nor does it indicate that illegal 
immigrants contribute nothing to our economy. Rather, illegal 
immigrants represent a net loss to the U.S. economy because they 
generally consume more in government benefits than they pay in taxes.
    In recent years, scholars have attempted to precisely determine the 
fiscal burden of illegal immigrants. Of course, they can only offer 
estimates, but the results are astounding and troubling. Relying on 
data compiled by two of the best studies, one conducted by the National 
Research Council and one by the Center for Immigration Studies, it is 
conceivable that over their lifetimes, the estimated 12 million illegal 
immigrants residing in the U.S. today will cost American taxpayers over 
half a trillion dollars. This startling figure cannot and should not be 
ignored as Congress debates the future of U.S. immigration policy.
    Certainly the largest single fiscal impact of illegal immigrants is 
the cost to taxpayers of educating their children, whether U.S. or 
foreign-born. The Supreme Court has ruled that absent clear 
instructions from Congress, local communities are not permitted to deny 
elementary and secondary education to illegal immigrant children. 
Nationwide, public education costs over $7,700 per student per year. 
Most illegal immigrants with three young children are simply not going 
to pay enough in taxes each year to cover the $23,000 cost of educating 
their children. Additionally, the contribution of illegal immigrants to 
overcrowding in America's schools is a growing problem across the 
United States.
    Another huge fiscal drain is the cost of uncompensated health care 
for illegal immigrant families. The majority of illegal immigrants do 
not have health insurance. As a result, hospitals in the southwest 
border counties of Texas, New Mexico, Arizona, and California alone 
incur costs of $190 million per year for uncompensated emergency 
medical treatment of illegal immigrants. The California Hospital 
Association worries that care for illegal immigrants could force some 
hospitals into bankruptcy.
    The law enforcement costs of illegal immigration are also 
substantial. Currently, 19% of inmates in federal prisons are 
noncitizens, and in 2003, California spent at least $635 million for 
the incarceration of illegal immigrants.
    Today's hearing will focus on the fiscal impact that could be 
expected if most of the illegal immigrants in America were to receive 
amnesty, as proposed by the Reid-Kennedy bill. While amnestied 
immigrants might be less likely to work off the books, it is absolutely 
essential that we recognize and carefully consider the fact that if 
legalized, they will also become eligible for many local, State and 
Federal welfare programs for which they are currently ineligible. In 
addition, under the Reid-Kennedy bill, they will be able to collect 
money from the Social Security Trust Fund based on the work they 
performed while here as illegal immigrants, placing further obligations 
on our already strained Social Security system.
    In terms of the federal budget alone, the Center for Immigration 
Studies estimates that the cost to taxpayers of each illegal immigrant 
is currently over $2,700 per year. CIS further estimates that the blow 
to American taxpayers will more than double--from $10 billion to almost 
$29 billion a year--should illegal immigrants receive amnesty. Other 
independent estimates indicate that the costs could be even higher.
    While immigration is an emotional issue for millions of Americans, 
we cannot allow emotion alone to dictate the manner in which we respond 
to this pressing national issue. I believe that the American people 
expect and deserve Members of Congress to approach immigration policy 
in a thoughtful, factual, and responsible manner. We will not have met 
this obligation unless we seek to fully understand how our actions will 
affect the tax burden, and access to quality healthcare, education, and 
government services, of this generation and future generations of 
Americans. It is my hope that our hearing today will contribute to the 
extensive substantive examination that must inform this Committee's and 
Congress's consideration of these critical issues. I now recognize the 
gentleman from California, Mr. Berman, for an opening statement.

    Mr. Berman. Well, thank you very much Mr. Chairman. And 
with great respect and affection for you, I will now take a 
very different view of the process we're about to embark on 
over the next month, month and a half.
    I think people can throw the civic textbooks out, because 
those textbooks tell us and more than 200 years of history tell 
us that hearings are normally held before bills are passed. 
They're used to gather information that might assist in 
drafting the bill. Had the Judiciary Committee of the House 
held as many hearings before the bill passed on the House bill 
as it is holding after the fact on the Senate bill, the House 
might have passed a more effective bill.
    When two Houses of Congress pass a bill, the bill goes to 
conference, not to hearings, to see if we can be working out 
the differences. We're moving backwards in the process.
    Last December the Chairman introduced a bill which was 
passed by the House. That bill was introduced on a Tuesday and 
without a single hearing on the provisions of that bill in the 
full Judiciary Committee on it was marked up, moved to the 
floor and passed the following Friday. No hearings on that 
bill. There was no real deliberative process and no solution to 
America's need for meaningful immigration reform.
    The Senate passed an immigration bill in May and for more 
than 2 months now the Republican Majority in the House has been 
sitting on its hands. They want to avoid a conference because 
this issue divides their party, and this is an election year.
    I don't think the Senate bill is an ideal solution, but if 
we don't sit down at the table to work on a conference, we'll 
end up doing nothing. We're going to have a witness, Kevin--I 
think it's Kevin Burns from the Medical Center at the 
University of Arizona who is going to talk about the total 
failure of the Senate bill. But I assume when he reads it, he 
will also agree the House bill to deal with the incredible 
health care costs caused by the problem of illegal immigration 
on our State, local governments, teaching hospitals and other 
such institutions.
    These hearings are a con job on the American people. The 
Republican Majority in the House is trying to persuade the 
American public that they want very badly to enact immigration 
reform, but they just need to study it a little bit more in 
these hearings before they can get the job done. Instead of 
defending their bill in Congress, they want to come in and 
explain to them why this bill is superior to the bill they like 
to call the Reid-Kennedy bill. That's a bill--I mean, it sounds 
like when the Daily Worker used to spread the official party 
line from Moscow; if you say a lie enough, it becomes the 
truth.
    That Senate bill was introduced, the primary sponsor was a 
senator, Republican Senator John McCain of Arizona with Senator 
Kennedy as his partner. It went to a Committee chaired by Arlen 
Specter, Republican of Pennsylvania, that made a number of 
changes in that bill. It went to the Senate Floor where two 
Republican senators, Hagel and Martinez put together a 
compromise that basically was blessed by the Republican White 
House and passed the Senate. But for the Republicans in the 
Majority here, it's the Reid-Kennedy bill.
    What do you think they're up to? Even though Republicans 
hold the White House, a majority in both house of 
Representatives and the Senate, they cannot sit down and put 
together a real immigration reform package that will produce 
meaningful long term results.
    You know what's going to happen? Late September, early 
October we're going to recess. Maybe the House will pass their 
bill one more time. They know it won't become law. And then 
they're going to hope they can persuade the American people 
that on one of the most critical crises we have in domestic 
policy, that is the total failure to deal with the issue of 
illegal immigration effectively, that when they come back after 
the election or maybe next year they'll get really serious 
about doing something. And now they're going to have to explain 
to the American people why there are still 12 million people in 
this country using false identifiers, why nothing real has 
happened to better secure our border, why there is nothing in 
law protecting the jobs of American workers by implementing a 
real employer verification program. Why only little minor 
actions are done to help our Border Patrol agents and why 
fundamentally nothing has been done to fix an inadequate and 
broken immigration system.
    The American people have a right to be angry about the fact 
that this Congress has done nothing because the failure to act 
has made our immigration problem exponentially worse.
    The reality we know; everyone at this table in their heart 
of hearts knows it. A bill that's embraced by Tom Tancredo 
cannot be passed by the Senate and will not be signed by the 
President. A bill that is opposed by Tom Tancredo can only be 
passed if Republicans and Democrats, House and Senate and the 
White House, which is more than willing to do so, work on a 
bipartisan basis to clean up both bills and find some 
fundamental way to make our borders more secure, to implement a 
meaningful employer verification system to deal with the fact 
that there are 12 million people in this country using the 
false identifiers to deal with the incredible exploitation and 
therefore the displacement of many American workers. That's the 
only way it's going to happen. It's not going to happen by a 
bunch of hearings in September and August and then recessing 
and trying to con the American people into saying that we're 
going to come back maybe after the election, maybe next year 
and really deal with it.
    I yield back, Mr. Chairman.
    Chairman Sensenbrenner. Without objection all Members' 
opening statements will be placed in the record in the record 
at this time.
    The five witnesses that we have today are: The Honorable 
Michael D. Antonovich, Mayor of the County of Los Angeles; 
Sheriff Leroy D. Baca, the Sheriff of Los Angeles County, 
California; Robert Rector, a Senior Research Fellow in Domestic 
Policy Studies at the Heritage Foundation; Kevin J. Burns, 
Chief Financial Officer of the University Medical Center 
Corporation of Tucson, AZ; and Professor Wayne Cornelius of the 
University of California San Diego.
    Gentlemen, would you please stand and raise your right hand 
and be sworn in?
    [Witnesses sworn.]
    Chairman Sensenbrenner. Let the record show that each of 
the witnesses answered in the affirmative.
    The first witness will be The Honorable Michael D. 
Antonovich, Mayor of the County of Los Angeles. Supervisor 
Michael Antonovich represents the 2 million residents of Los 
Angeles County's Fifth Supervisory District in the San Gabriel, 
Pomona, San Fernando, Santa Clarita and Antelope Valley areas.
    He served in the California State Assembly until 1978 and 
has served the people of Los Angeles County as a member of the 
Board of Supervisors since 1980.
    Sheriff Leroy Baca of Los Angeles County, California was 
sworn in as the 30th Sheriff of Los Angeles County on December 
7, 1998. He commands the world's largest sheriff department in 
the world and supervisors more than 13,000 sworn and civilian 
personnel. He has served the Los Angeles County Sheriff's 
Department since joining it on August 23, 1965.
    Now Robert Rector is a leading authority on poverty and the 
U.S. welfare system. He is currently the Senior Research Fellow 
in Welfare and Family Issues at the Heritage Foundation in 
Washington. He has studied welfare and poverty issues at the 
foundation for the last 18 years and his articles have been 
published in the Wall Street Journal, Los Angeles Times and 
hundreds of other newspapers.
    Kevin Burns is the Chief Financial Officer for Arizona's 
sole teaching hospital and Southern Arizona's only level 1 
trauma center. He is responsible for the financial management 
and health of the University Medical Center overseeing its 
financial reporting, operational and capital budgeting, 
investment and treasury management, information systems and 
revenue cycle activities.
    Professor Wayne Cornelius is the Gildred Professor of 
Political Science in U.S. Mexican relations at the University 
of California San Diego. Dr. Cornelius specializes in 
comparative studies of the political economy of immigration and 
immigration policy in advanced industrial nations, Mexican 
politics and U.S. Mexican relations.
    Supervisor Antonovich, I will recognize you first.
    I would like to ask each of you to limit your testimony to 
5 minutes or thereabouts, but as I've indicated earlier your 
prepared statements will be included in the record.
    Supervisor Antonovich?

STATEMENT OF THE HONORABLE MICHAEL D. ANTONOVICH, MAYOR, COUNTY 
                         OF LOS ANGELES

    Mr. Antonovich. Thank you, Mr. Chairman, Members of the 
Committee.
    For the record, I was elected to the California State 
Assembly in 1972 with the esteemed Vice Chairman Howard Berman 
and served through 1978 as the Republican Whip.
    In discussing immigration, one must first distinguish 
between legal and illegal immigration. Legal immigration 
strengthens our nation. However, illegal immigration is an 
affront to those who legally immigrate to this country. It 
tears at the moral and economic fabric of our society, and it 
ought not to be rewarded.
    Los Angeles County has a population larger than 42 States, 
10.2 million people. However, it is also home to almost 
approximately 12 percent of the country's illegal immigrant 
population, the largest of any county in the United States. 
Unlike the East Coast where the cities run most of the social 
service and criminal justice programs, Los Angeles County has 
the responsibility for felony prosecutions and all the social 
and welfare services. Our 88 cities are more comparable, if you 
compare it to New York City, as to burroughs where the county 
here has the responsibility with the District Attorney and the 
Sheriff along with the social services programs.
    As we have experienced since the passage of the Simpson-
Mazzoli legislation, which I supported, in 1986 amnesty has 
only provided incentives for continued illegal entry into our 
country. We must not repeat the mistakes of the past. We need 
to tighten the borders, increase enforcement, prosecution, and 
end ineffective strategies including the ``Catch and Release'' 
program for detained illegals.
    The fiscal drain on the taxpayers by those who are here 
illegally is catastrophic. In public safety, health care and 
social services illegals cost Los Angeles County taxpayers 
nearly $1 billion per year. And this does not include the cost 
of education.
    Twenty-five percent of our inmates in our county jails are 
illegals. The cost to our county's justice system is $150 
million a year which includes incarceration, prosecution, 
defense and probation.
    Our health care delivery system has become the HMO for the 
world. Within our health care delivery system, approximately 30 
percent are illegals who are being treated annually at a cost 
of roughly $360 million a year. This includes inpatient and 
outpatient services as well as mental health care.
    Our county's Department of Health Services estimates that 
nearly 26 percent of the ambulatory care visits were made by 
illegal immigrants.
    We are one of the few countries in the world where children 
of illegal aliens become automatically citizens when born here. 
As a result, every child born to an illegal alien is entitled 
to a variety of social services, including welfare until they 
reach the age of 18. That cost for Los Angeles County taxpayers 
is nearly $276 million annually in CAL Works payment, formerly 
called Aid For Dependent Children. And this does not include 
the cost of food stamps and child care services.
    The nearly 100,000 children of the 60,000 undocumented 
parents received aid in January 2006 for a total of 160,000 
illegal immigrants and their U.S. born children. If they were 
put into one city, they would be the fifth largest city in the 
County of Los Angeles
    We have a meltdown in our public schools. The Los Angeles 
Unified School District has the highest percentage of non-
English speakers of all school districts in the country, nearly 
half of all who do not speak English.
    Forty-four percent of the Unified School students receive a 
high school diploma, making the 727,000 student District's 
graduation rate among the lowest in the country.
    Illegal immigration causes American citizens and legal 
immigrants to pay more for jails, hospitals and classrooms.
    We have made some reforms. One of the programs I initiated 
with my longtime Chief of Staff, the late Dr. Tom Silver, took 
us about 8 years to get adopted. The High Intensity Criminal 
Alien Apprehension And Prosecution Program, HI-CAAP, is a 
multi-jurisdictional program which identifies previously 
deported criminal illegal aliens using fingerprint 
identification.
    Another program which took us about 5 years to implement, 
is a memorandum of understanding between the Sheriff of Los 
Angeles County, who is with us today, and Immigration and 
Customs Enforcement. This MOU was adopted by the County Board 
in January of 2005. It allows trained and certified Sheriff's 
personnel to identify criminal illegal aliens in the jails 
through an interview process. With the help of these Sheriff's 
personnel, fewer criminal aliens are released back into our 
communities. In fact, there's been an increase of over 40 
percent in the number of ICE holds over the same period as last 
year. The pilot program needs to continue and be expanded with 
additional resources from the Federal Government.
    We also need to increase funding for more prosecutions by 
the United States Attorney for those who violate Federal 
immigration laws. The United States Attorney's Office in Los 
Angeles has lost millions of dollars in the last 5 years. This 
has resulted in the loss of over two dozen prosecutors. I would 
recommend that we would fully fund and fully staff the Southern 
California United States Attorney's Office. And the Federal 
Government needs to fully fund the State Criminal Alien 
Assistance Program, SCAAP, and all of the other unfunded 
services provided to illegals to recognize the total economic 
impact that this has on local government.
    I would also recommend the establishment of medical centers 
along the Mexican side of the American/Mexican border States. 
Just as we have county hospitals teaching students----
    Chairman Sensenbrenner. Mayor, your time has expired.
    Mr. Antonovich. Could I have 60 seconds, Mr. Chairman?
    Chairman Sensenbrenner. Without objection.
    Mr. Antonovich. We could have these health centers with 
qualified American and Mexican teaching physicians and nursing 
professionals that would provide the opportunity of providing 
service on the side of the Mexican side of the border and 
providing opportunities for these people to be trained.
    Also a guest worker program that would be bonded, that 
would provide legitimacy, security and opportunity to work in 
the United States while sparing taxpayers the burden of 
financing their health care. President Eisenhower initiated a 
program that permitted up to 400,000 Mexicans a year to enter 
the U.S. for agriculture jobs that lasted from 12 to 52 weeks.
    A similar program of a trained reserved component like our 
sheriffs and police departments have would provide additional 
officers for the Border Patrol.
    And a cost effective program in establishing employer 
hotline to quickly verify the legitimacy of Social Security 
numbers with the Federal Government being responsible for 
enforcement.
    And along with those is to encourage Mexico to develop 
privatized companies just as they've done in China, the 
Dominican Republic and Eastern Europe. For example in the oil 
company if that was privatized, that would provide a stable 
source of oil and energy instead of having us dependent upon 
the Middle Eastern oil and provide economic opportunities for 
the citizens in Mexico.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Antonovich follows:]

              Prepared Statement of Michael D. Antonovich

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Sensenbrenner. Thank you.
    Sheriff Baca?

         STATEMENT OF SHERIFF LEROY D. BACA, SHERIFF, 
                 LOS ANGELES COUNTY, CALIFORNIA

    Sheriff Baca. Thank you. I'm delighted to be here.
    Chairman Sensenbrenner. The other button. Are we on?
    Sheriff Baca. Okay. Thank you very much.
    And I recognize how difficult this problem is and I commend 
you for coming together at this point in time in a very 
important part of the United States to discuss a problem that 
is so difficult to get your hands around it. I'm hoping that 
whatever I can say and those on this panel will offer you some 
additional wisdom in solving the problem.
    Los Angeles County, as indicated by Mayor Antonovich, has 
been plagued with this problem perhaps longer and more 
intensely than any other part of the United States. And San 
Diego, obviously, has had a significant amount of difficulty in 
dealing with this problem as well.
    The mass migration in the United States is just something 
that's been going on too long and the consequences are rather 
severe, as you all well know.
    The Los Angeles County jail system, as indicated by the 
Mayor, has 26 percent of its population as illegal immigrants. 
When I look at the various solutions that have been offered 
both on the Senate side and the House side, it's clear to me 
and the sheriffs throughout the United States that in order to 
effectively cut off the flow, the border must be secured. And 
that border security is absolutely critical to what any 
solution is for the immediate present term problem. We learned 
that when the prior Administration Bush 1, if I can call Bush 
1, Bush 1, offered up a solution that made a lot of sense. But 
quickly in the subsequent years the problem just reappeared 
itself. And therein we have a problem, that the borders be 
secured.
    The sheriffs of our country and the police chiefs of our 
country cannot enforce a law without proper funding. And if you 
decide to enact legislation that would bring local law 
enforcement in the solution, you're going to have to fully fund 
every police department and every sheriff's department 100 
percent of whatever its costs are.
    The trouble we see in the one House bill that $250,000 is 
set aside for a law enforcement agency to do some of this work. 
Now I may have misread that figure, but clearly in Los Angeles 
County alone it's going to cost the entire county over $100 
million to do enforcement work as well as incarceration work. 
And therein I think the top recommendation that I can make to 
you would be:
    (1) Recognize that we do not have a law enforcement agency 
that is a national law enforcement agency on this issue. Even 
the Border Patrol, FBI and any other form of Federal law 
enforcement they aren't equipped to divert themselves wholly to 
the solution of arresting illegal aliens. Thus, logic would say 
that local law enforcement needs to do the job. But you cannot 
divert us from our primary task of chasing down hard core 
criminals as well as softer criminals. If we're going to get 
into this business, we're going to have to be fully funded. 
We're going to have to have an ability to be a voice in 
whatever is going to go on between ourselves and the Federal 
Government. That we want to have you focus not only on illegal 
immigrants here trying to find work, but the most vexing part 
of this is the illegal immigrants that we do work with Federal 
authorities in deporting, they do get deported. And in Los 
Angeles County in a study that we showed, in 5 years, deported 
illegal immigrant, 70 percent were rearrested in Los Angeles 
County four more times. Which tells me that the criminal 
illegal immigrant, the one that's committing murders and 
robberies and burglaries and drug dealing and all that can get 
deported but will quickly find his way back into the United 
States which creates a double problem for all of us.
    So, thus, I have 12 recommendations from the National 
Sheriffs' Association that I would like to represent to you. 
I'm not going to read them all into the record here.
    But a partnership means a true partnership. And because the 
United States is policed by 3,000 sheriff departments and 6,000 
police departments we have no national police department as 
such. So each one of these agencies is going to have to have a 
real contract with the Federal Government with full 
reimbursement, with full provisions for training as well as for 
technology enhancements. Because to round up 11 or 12 million 
people is going to take every imaginative and creative resource 
we can put together to do this.
    And so I only ask that before you push the problem down to 
the local law enforcement agencies that you ask this what do we 
need to get the job done. And that a committee, if you're going 
to go that way, needs to be formed. The National Police Chiefs, 
the National Sheriffs, I sit on the major sheriffs and major 
police chiefs association as a board member. And we'd be happy 
to help you.
    Thank you very much.
    [The prepared statement of Sheriff Baca follows:]

                  Prepared Statement of Leroy D. Baca

    The impact of international border security reaches far beyond the 
line between California and Mexico. Although the County of Los Angeles 
is not geographically contiguous to the U.S./Mexican border, issues of 
illegal entry into the United States are important in the early 
intervention and prevention of terrorism. In order to remain adequately 
prepared, it is essential to have an effective network for information 
sharing and analysis. My testimony today will focus on efforts made by 
my Department in cooperation with federal, state and local agencies to 
share information aimed at preventing, disrupting or mitigating a 
terrorist attack.
    Originated in 1996 by two Los Angeles County Sheriff's deputies, 
the Terrorism Early Warning (TEW) Group has been identifying and 
analyzing indications of the potential for a terror attack within Los 
Angeles County. The TEW provides a system to collect and process 
information across jurisdictional and disciplinary lines, and 
therefore, enables a complete perspective beyond that of only 
traditional criminal intelligence. From its humble beginnings, the TEW 
now employs subject matter experts from law enforcement, the fire 
service, public health, academia and the military, all-working together 
to ensure the safety of Los Angeles County residents. The TEW has 
recently evolved into the Joint Regional Intelligence Center (JRIC), 
which combines assets from the Los Angeles County Sheriff's Department, 
Los Angeles Police Department, FBI, United States Attorney General's 
Office and the California State Office of Homeland Security (OHS). It 
is here that representatives from federal and state agencies work side 
by side with local public safety practitioners. Participation also 
includes representatives from the surrounding six counties as 
cooperative partners. Included in this system is an extensive network 
of Terrorism Liaison Officers (TLO), who act as primary points of 
contact for their respective agencies. The creation of long-term 
relationships built on mutual trust has resulted in high quality 
analytical products that are provided to decision makers covering a 
variety of terror related subjects. The combination of analysts from a 
variety of agencies and disciplines enables an expansive view for 
identifying trends and recognizing potential activity, which could 
indicate a pending terrorist attack.
    The U.S. Department of Homeland Security's (DHS) presence at the 
JRIC is essential. In addition to the one analyst currently assigned 
however, there is a need for full-time representatives from other DHS 
agencies such as Customs and Border Protection, Immigration and Customs 
Enforcement, the Transportation Security Agency and the Coast Guard. 
These organizations possess critical information that must be 
synthesized with local intelligence to provide the clearest view 
possible of potential threats to the nation and the region. All of 
these partnerships are necessary to overcome the traditional 
bureaucratic inertia in the field of intelligence sharing.
    To further this effort, The Los Angeles County Sheriff's Department 
also participates on the Los Angeles Joint Terrorism Task Force (JTTF). 
Alongside our partners from federal, state and local agencies, Los 
Angeles County Deputy Sheriff's investigate cases linked to terrorism 
within the County. Information gathered during these investigations is 
disseminated by the FBI on a regular basis to all appropriate agencies.
    The State of California has also recognized the value of 
cooperation between federal, state and local agencies by funding a 
series of Regional Terrorism Threat Assessment Centers (RTTAC). The 
JRIC functions as the RTTAC for the Southern California Region, which 
encompasses a total of seven counties. I strongly encourage the 
participation of any public agency involved in issues of Homeland 
Security with its local RTTAC, TEW or other fusion center to ensure the 
best possible analysis and information sharing.
    Los Angeles County is more than 100 miles from the Mexican border, 
but we feel the effects of its vulnerability. Twenty-six percent of the 
inmates in the custody of the Los Angeles County Sheriff's Department 
are eligible for State Criminal Alien Assistance Program (SCAAP) 
funding, which indicates their illegal presence in the United States. 
However, SCAAP funding requirements are so stringent that 26 percent is 
not an accurate assessment of the actual number of immigration status 
offenders in County custody. When the SCAAP funding requirements are 
set aside, we believe that actual percentage is closer to 40 percent. 
As a result of this funding disparity, my Department is not reimbursed 
adequately by the federal government. I would request that Congress 
take another look at the SCAAP program for a more equitable 
reimbursement process. Whether the percentage is 26 or 40, these 
inmates have entered the United States in every way imaginable, from 
fraudulently obtained visas, to stowing away in cargo containers to 
simply walking across an unguarded section of the border. While in Los 
Angeles County, these inmates have committed crimes that resulted in 
their being incarcerated in my jail system. Recognizing the need to 
have these offenders screened prior to release into the community, Los 
Angeles County entered into a Memorandum of Understanding with the 
Department of Homeland Security, Bureau of Immigration and Customs 
Enforcement to provide training to custodial personnel regarding 
immigration status offenses. This training enables county employees to 
screen inmates for potential deportation proceedings once their Los 
Angeles County criminal cases have been adjudicated. This pilot 
program, now in its sixth month has resulted in 3,317 interviews of 
potential illegal immigrants. Of these, federal immigration holds were 
placed on 1,886 inmates of whom 1,431 were approved for action by the 
Bureau of Immigration and Customs Enforcement. This cooperative 
arrangement with the federal government is the first of its kind and 
would have been unthinkable prior to September 11th.
    As to the more general question regarding terrorists crossing the 
southern border, I have no reason to dispute FBI Director Mueller's 
statements regarding his belief that it is not only possible, but that 
it has already occurred. It makes logical sense that anyone wishing to 
enter the United States illegally would use paths that have proven 
successful in the past. Millions of illegal immigrants have 
successfully crossed our southern border and are living undetected 
within Los Angeles County. While most have come looking to improve 
their economic status in life, the obligation of all of us in public 
safety is to, first, keep those that would harm the United States from 
entering, and second, remove them from our community should we find 
them already here. As the elected leader of the Los Angeles County 
Sheriff's Department, I am committed to expanding cooperation with all 
federal, state and local agencies in our efforts to combat terrorism. 
The citizens of Los Angeles County and the nation deserve a secure 
homeland. No one agency can provide that security. Only by working 
together in a collaborative, mutually supportive environment can we 
provide the security we all assumed was in place prior to September 
11th.
    Thank you for the opportunity to participate in this hearing, and I 
look forward to answering any questions you may have.

    Chairman Sensenbrenner. Thank you, Sheriff.
    Mr. Rector.

STATEMENT OF ROBERT RECTOR, SENIOR RESEARCH FELLOW IN DOMESTIC 
            POLICY STUDIES, THE HERITAGE FOUNDATION

    Mr. Rector. Thank you very much for the opportunity to be 
here today and to testify before this Committee. I'm going to 
focus on the fiscal or governmental cost impacts of low skill 
immigration both legal and illegal and the role of the Senate 
Immigration Reform bill in exacerbating those problems.
    In a nutshell over the last 20 years or so the United 
States has imported about 10 million high school dropouts, both 
legal and illegal into the United States and the fiscal impact 
of importing 10 million high school dropouts is about the same 
as if you had 10 million native born high school dropouts. It's 
very expensive to the Government. These individuals contribute 
very little in taxes, take out a lot in services. But overall 
if we look across the country there are about 50 million people 
living in immigrant households in the United States, about one-
third of those live in households headed by a person who does 
not have a high school degree. If you look at illegals, it's 
one-half of them are in households where the head of that 
household does not have a high school degree.
    The National Academy of Sciences in a very comprehensive 
study of the fiscal impact of immigration said that each high 
school dropout immigrant coming into the United States costs 
the taxpayers of the United States about $100,000 over the 
course of his lifetime. That would mean if you took that 
figure, and that's net of the taxes that he puts in, if you 
took that figure and applies it to the current illegal 
population it would indeed result in something like a net cost 
of a half a trillion dollars over the course of lifetime. Just 
another way of looking at the same thing.
    The typical high school dropout family, let's say a family 
of four headed by somebody who does not have a high school 
degree, on average across the United States receives something 
like $4,000 per person in needs benefits, that's something 
$16,000 per family. Then you add on top of that the cost of 
educating two children in the family, that's another $16,000 a 
year. That alone on those costs alone is close to $30,000 a 
year. If they're illegals, they don't get all of those benefits 
but if you grant them amnesty, they would in fact fall into 
that same pattern.
    Overall if you were to look at our country we now find that 
one out of four poor children in the United States are the 
children of immigrants. One out of ten are the children of 
illegal immigrants poor children are the children of illegals. 
And overall, roughly about one out of six poor children in the 
United States are in this particular category of kids whose 
parents are either legal or illegal immigrants who have very 
low education levels.
    The continual influx of this very low scale, low poorly 
educated population is having a dramatic effect of driving up 
poverty rates in the United States. And I would say as a 
poverty expert it will be virtually impossible for us to reduce 
child poverty in the United States through either liberal or 
conservative policies as long as we continue to have this 
influx.
    Now, with respect to the costs of the Senate bill, the 
Senate bill one of its key features is to give amnesty to 
around 10 million current illegal immigrants. That means that 
they will probably pay more in taxes, but it also means that 
they're eligible for a much wider variety of welfare programs. 
And as a result of that increased welfare eligibility, I 
calculate that the amnesty alone would have a direct cost of 
around $16 billion a year.
    In addition beyond that, once they are granted amnesty they 
have a right to bring in children and spouses from abroad. 
Those individuals would also become eligible for Government 
services and welfare adding additional costs on top of that.
    Then finally if you give amnesty and put a pathway to 
citizenship for 10 million illegal immigrants, everyone of 
those individuals when they become a citizen has an 
unconditional right to bring their parents into the United 
States and if their parents come to the U.S., after they've 
been here for 5 years, they become eligible for Medicaid 
services. Medicaid for the elderly costs $11,000 per person per 
year.
    So you're talking about if you have an amnesty for 10 
million, potentially having 20 million elderly people from 
abroad who could enter the United States and access the most 
expensive and advanced medical system in the world. If even a 
fraction of those, even say 3 million out of the 20 came in and 
got into the Medicaid system, the annual costs would be 
something like $30 billion a year. It's just a staggering cost.
    We have a very expensive, very large welfare system in the 
United States. We simply cannot make it unconditionally 
available to huge numbers of people from less developed 
nations.
    I would say in addition that this bill grants--brings an 
additional 50 million or so legal immigrants into the U.S., all 
of whom would be--many of whom would be low skilled and that 
would pile even additional costs on top of those I've talked 
about.
    I believe the bill is deeply flawed because providing 
amnesty is unfair to those people who have tried to come into 
the country lawfully and because it will impose huge cost. This 
bill, the Senate bill will be the largest expansion of the U.S. 
welfare system in 30 years if it's enacted and it's exactly the 
wrong thing. What we need to do as a policy is bring more high 
school immigrants into the country. They are net fiscal 
contributors. They pay more in taxes than they take out. Fewer 
low skill immigrants.
    Thank you very much.
    [The prepared statement of Mr. Rector follows:]

                  Prepared Statement of Robert Rector

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Sensenbrenner. Thank you, Mr. Rector.
    Mr. Burns?

   STATEMENT OF KEVIN J. BURNS, CHIEF FINANCIAL OFFICER, THE 
      UNIVERSITY MEDICAL CENTER CORPORATION OF TUCSON, AZ

    Mr. Burns. Mr. Chairman, Members of the Committee, on 
behalf of the University of Arizona Medical Center thank you 
for the opportunity to testify before you today.
    I previously provided my written comments and planned to 
read only excerpts of those comments today just in the interest 
of time. I did want to tell you a little bit about the 
University Medical Center.
    We're a 355-bed academic medical center located in Tucson, 
Arizona and we support the teaching mission of the University 
of Arizona College of Medicine. Since July 2003. UMC has been 
southern Arizona's sole level one trauma center. Prior to that 
there were two, and Tucson provided that service.
    We're located in the heart of Tucson. We're about an hour's 
drive from our country's border with Mexico.
    UMC is a good hospital. I won't read all our accolades, but 
we're a magnet hospital, we were the first in Arizona to 
receive that designation. And we're one of only 200 magnet 
hospitals in the entire country.
    We also have among the lowest nurse to patient ratios in 
the country. We're committed to ensuring that our patients 
receive solid care, so we implemented a self imposed ratio of 
only one nurse to four patients several years ago and we 
maintain that commitment today.
    We're also committed to finding ways to provide access to 
those that are in need. And over 2 years ago we adopted an 
innovative policy for the under and uninsured. There are others 
that are now trying to catch up and copy what we've done. But 
under our program people who don't have insurance or who don't 
have adequate insurance will never pay more than Federal 
program rates at our hospital and, of course, many pay much 
less.
    During fiscal 2006 and 2005, the cost of care provided by 
UMC to the uninsured, uncompensated care to the poor and 
foreign nationals totaled $30 million and $27 million, 
respectively.
    Since becoming the sole level one trauma center in southern 
Arizona in 2003 we experienced a 54 percent increase in our 
trauma volumes. We find that the majority of foreign nationals 
treated at UMC arrive as trauma patients or through our 
emergency department.
    In fiscal 2006 it cost UMC almost $5 million to care for 
foreign nationals, and in the prior year in 2005 it was $4 
million.
    To put it in perspective, for UMC this is very significant. 
Five million dollars would pay the full payroll for all 3,000 
of our employees for one pay period. We're in the middle of our 
expansion of our emergency department, which is absolutely 
packed right now. Five million dollars a year would pay for our 
emergency department expansion in about 5 years.
    And we have a shortage of nurses. Five million dollars 
would allow us to hire and pay for the compensation and 
training for over a 100 nurses.
    We have a number of examples we could provide you of the 
burden that treating foreign nationals puts on our hospital and 
our trauma department in particular. And one reason why it's 
unique is because we tend to have large car accidents or 
automobile accidents where there are a number of foreign 
nationals in the cars and they end up going into our trauma 
center all at once. One recent case in 2006 involved a truck 
that was carrying 20 foreign nationals. It crashed. Thirteen of 
those patients were sent to UMC. Some went to the Phoenix 
trauma centers.
    UMC has four trauma bays. When you have 13 patients show up 
it not only puts immense stress on our one trauma center for 
the marketplace, but it does impact the region's entire 
emergency response system.
    Now UMC hasn't sat idly by nor have other health care 
providers in our community. We've undertaken a number of 
initiatives on our own to try to help this issue. And I'm only 
going to read one example that we're very proud of, and that is 
the Neovida program. In 1998 we were receiving at least 15 
patients--15 babies a year from Agua Prieta and Sonora, Mexico. 
The cost of one such infant to our hospital will typically cost 
at least $75,000 for us to care for that patient.
    The University Medical Center partnered with Tucson Medical 
Center, one of our colleague hospitals in Tucson, and we worked 
with the Secretary of Health in Sonora and we created a small 
neonatal intensive care unit in Agua Prieta at their hospital 
there.
    In the first year after implementing that program, infant 
mortality dropped from 15 percent to 2 percent. And the number 
of transports for infants from that region has gone about 15 
per year to absolutely zero.
    I'm almost out of time. I just want to cut to the chase.
    Right now the Immigration and Border Security policy 
require corrective action. I think that's why we're all here. 
Health care should be the integral part of the reform efforts. 
And presently I've looked at both the drafts, I haven't studied 
them, I'm not an expert on the two proposals, but health care 
is barely mentioned and it's only mentioned in the Senate bill. 
Health care needs to be covered so we cannot bankrupt the 
health care system or increase that burden.
    So my parting comment is Congress should not only enact 
legislation that protects our citizens especially in this time 
of war, but we also must include measures that reduce the 
financial burden of existing and proposed policy on our health 
care delivery system.
    Thank you.
    [The prepared statement of Mr. Burns follows:]

                  Prepared Statement of Kevin J. Burns

                              INTRODUCTION

    We believe that currently proposed legislation may worsen the 
financial burden on our Nation's healthcare system and tax payers as 
the proposed legislation may result in a greater number of immigrants 
entering the United States with no provision for covering their 
healthcare costs.

           ABOUT UNIVERSITY MEDICAL CENTER CORPORATION (UMC)

    UMC is a 355-bed academic medical center located in Tucson, 
Arizona, supporting the teaching mission of the University of Arizona 
College of Medicine. Since July 2003, UMC has been southern Arizona's 
sole level one trauma center, and in addition provides a comprehensive 
array of critical care services including transplantation, oncology, 
pediatric and cardiovascular services. UMC is located in the heart of 
Tucson, roughly an hour's drive from our country's border with Mexico. 
UMC is a Magnet hospital, the first to achieve this designation in 
Arizona and one of only 206 in the entire United States. In addition, 
UMC operates at among the lowest nurse to patient ratios in the 
country, maintaining a self-imposed ratio of one nurse to every four 
patients. UMC was included in the Solucient 2005 Top 100 hospitals, one 
of only 15 major teaching hospitals in the nation to make this list. 
And, U.S. News and World Report recently ranked UMC among the top 50 
hospitals in the nation.
    UMC is committed to providing access to care for those that may not 
have insurance or in instances where their insurance is inadequate. 
Over two years ago, UMC adopted a plan for the uninsured and 
underinsured. Under this program, people lacking insurance, including 
foreign nationals, are asked to pay no more than the rates paid to UMC 
by Federal programs and generally pay us much less. During fiscal year 
2006 and 2005, the cost of care provided by UMC to the uninsured, 
uncompensated care to the poor and foreign nationals, totaled 
approximately $30 million and $27 million, respectively.

                 THE IMPACT OF FOREIGN NATIONALS ON UMC

    Consistent with UMC's philosophy and policies and as governed by 
federal law, we provide care to any person that presents to our 
hospital with an emergency medical condition without regard to their 
citizenship or their ability to pay.
    Since becoming the sole level one trauma center in Southern Arizona 
in 2003, we have experienced a 54% increase in our trauma volumes. We 
find that the majority of foreign nationals treated at UMC arrive as 
trauma patients or through our emergency department. Many are seriously 
injured or ill and require extended inpatient stays, sometimes lasting 
several days or months. These patients put added strain on UMC given 
our limited physical space, compounded by the shortage of nurses and 
the impact non-paying patients have on our ability to succeed as an 
organization. In fiscal 2006, it cost UMC almost $5 million to care for 
foreign nationals. In fiscal 2005, this amount was almost $4 million. 
The trend continues to be one of rising healthcare costs as we see an 
increase in the number of foreign national patients with higher acuity. 
To put the financial impact of caring for foreign nationals in 
perspective: $5 million would cover the salaries of our 3,000 employees 
for one pay period; $5 million would repay the cost of the much needed 
expansion of our ED in 5 years; or $5 million could be used to pay the 
salaries of more than 100 new nurses.
    The care we provide foreign nationals is the same as we provide to 
any patient. However, in addition to the financial burden, there are a 
myriad of other activities that consume our resources. These activities 
range from tracking down family members in foreign countries, extensive 
case management, and arranging for medical care for the patient in 
their home country to enhance their chances for a complete recovery.
    Following is an example of a case that illustrates the extensive 
resources required to care for a foreign national patient.

        In 2006, a pick-up truck having just crossed the U.S.-Mexican 
        border crashed ejecting all of its passengers. The truck was 
        carrying 20 foreign nationals crammed into the open bed of the 
        truck. Thirteen of the crash victims were transported to UMC: 5 
        patients were triaged, treated and released; 1 patient died in 
        surgery and 7 patients were admitted for further care. UMC has 
        four trauma bays. When this type of multiple trauma occurs, it 
        places severe stress on UMC's trauma resources as well as the 
        region's emergency response system. To illustrate what happens 
        to a patient in these circumstances, the following describes 
        the actions taken to care for one victim of this serious 
        accident, a 32-year-old male who suffered a major head injury 
        (intracranial hemorrhages and orbital fractures). As a result 
        of his injuries this patient was ventilator dependent and 
        required 14 days in UMC's intensive care unit. Once the patient 
        was medically stable, he was transferred by air ambulance to 
        Oaxaca, Mexico for continuing care. UMC was required to pay the 
        cost of the specialized air transportation to return the 
        patient home, which totaled $19,000. After 14 days in our 
        hospital the cost of caring for this patient was over $70,000. 
        We received no reimbursement to help defray the cost of this 
        patient's care. This is but one example of the hundreds of 
        foreign nationals UMC must treat each year.

    UMC, and other providers in our community realized many years ago 
that there were measures we could take to help reduce the burden of 
foreign nationals on our healthcare system. Some examples of these 
programs include UMC's International Outreach Program. In 1986, UMC 
hired Barbara Swanson Felix, International Outreach Coordinator, to 
track all foreign national admissions and identify patients that can be 
transferred back to their home country. As part of this program, the 
Coordinator developed a comprehensive network with the Mexican 
healthcare system. The Coordinator works with the patient care team at 
UMC and an accepting physician/facility to transfer the patient back to 
Mexico.
    In 1993, this program was augmented with an educational component 
with the intent of raising the quality of care provided in Mexico and 
retaining more Mexican patients at the local level. UMC hired a 
physician Liaison to Mexico, Dr. Adolfo Felix whose role made it 
possible for UMC and the University of Arizona College of Medicine to 
implement a formalized Continuing Medical Education program in Mexico. 
To date, thousands of physicians have been trained in Pediatric 
Advanced Life Support, Advanced Cardiac Life Support and Cancer 
Management. Simultaneously, the Physicians' Resource Service, dedicated 
to physician-to-physician communication and consultation by telephone, 
expanded its toll-free number to serve the entire Mexican region.
    UMC has also invested time and money on bi-national collaborative 
efforts. An example of this is the Neovida program. In 1998, at least 
15 babies a year were arriving in Tucson from Agua Prieta, Mexico, and 
surrounding areas. The cost for one infant admitted to UMC's Neonatal 
Intensive Care Unit (NICU) is generally greater than $75,000. UMC and 
Tucson Medical Center (TMC) partnered with the Secretaria de Salud in 
Sonora to create Neovida in a small Neonatal Intensive Care Unit (NICU) 
in the public Hospital Integral in Agua Prieta, Sonora Mexico. This 
program allows these babies to receive the care they need in Mexico. At 
the local level, after implementing this program, infant mortality 
dropped from 17% to 2% in the first year and the number of infant 
transfers to Tucson declined from 15 to none. The two Tucson hospitals 
continue to fund the Neovida unit at a cost of approximately $25,000 
each annually, which is more than offset by the savings from not having 
to move these patients to Tucson.
    Another example of UMC's bi-national collaborative efforts is the 
inauguration of the Nogales Trauma and Stabilization Unit which came to 
fruition because of the hard work and dedication of many organizations 
and individuals such as the Arizona Department of Health Services, 
Secretaria de Salud in Sonora, TMC, and Holy Cross Hospital of Nogales, 
Arizona and others. With support from Congressman Jim Kolbe, a grant 
for $365,000 was secured from the U. S. Agency for International 
Development. The results of this effort has been a marked reduction in 
the number of patients presenting at UMC from Sonora, Mexico.

                           WHAT HAPPENS NEXT?

    The burden of providing healthcare to foreign nationals falls 
squarely on the shoulders of the nation's healthcare providers 
(hospitals, physicians, ambulance companies, etc). Hospitals operate in 
a market space that is highly regulated and where over one-half of the 
funding comes from government programs that generally do not cover 
costs nor keep pace with healthcare inflation. We have a growing and 
graying population, especially in the Southwest. Concurrent with this 
trend, the demand for hospital inpatient and outpatient facilities is 
growing, as is the cost of such facilities. And, at the same time we 
continue to have a shortage of nurses and physicians.
    Clearly hospitals must adapt to be successful in this market, not 
dissimilar to companies in any other industry. Unlike other industries 
however, we are required to accept government reimbursement that 
generally does not cover our costs and to care for patients requiring 
emergency care without regard to their citizenship or ability to pay.
    As long as our nation's policies on immigration and border security 
remain inadequate, America's hospitals will bear the vast majority of 
the burden of caring for foreign nationals. To offset these costs, 
hospitals negotiate higher rates with the Nation's managed care plans 
and large employer groups, effectively spreading the burden of the 
costs we incur to working Americans. This approach is becoming 
increasingly difficult to sustain as health plans and employers become 
more aggressive in implementing measures to hold down their healthcare 
costs.
    We recognize that there are a large number of challenges that must 
be addressed surrounding our Nation's immigration policy, and that the 
impact of the present environment on healthcare providers is but one 
element. From a broad perspective, in the interest of national 
security, we certainly need to secure our borders and properly control 
entry into the United States. We also need a reformed immigration 
strategy that reflects the world we live in today and that can be 
adapted relatively easily as times and circumstances change. We 
strongly believe that our representatives in Congress need to move 
quickly and comprehensively to remedy the present circumstances.
    We are not here today, though, to address the overall issues 
related to immigration reform and border security, but rather to offer 
some possible solutions to the impact on healthcare providers.
    Many of the individuals we have been discussing today, entered the 
United States legally. Some have retained legal status, many have not, 
but remain in the U.S. Others have entered the United States illegally, 
entering the country with the help of Coyotes, or by other means. We 
refer to these individuals collectively as foreign nationals. At UMC, 
we typically do not know and are not equipped to determine, an 
individual's immigration status. We view this task as more suited to 
members of law enforcement and not our healthcare professionals.
    In today's environment, our immigration policies do not adequately 
address the impact of immigration on healthcare. It has long been our 
experience that foreign nationals have no health insurance coverage and 
only under rare circumstances are they eligible for any healthcare 
coverage under federal or state programs, such as Medicaid. Further, 
upon review of currently proposed legislation regarding immigration, it 
does not appear that the provision of healthcare has been considered, 
and clearly it needs to be.
    We would be remiss if we did not mention that just recently through 
Section 1011 of the Medicare Modernization Act, Congress has provided 
$1 billion, over four years, to help defray the cost of emergency 
services to foreign nationals. We are appreciative of this assistance, 
and wish to extend our gratitude to Arizona Senator Jon Kyl for his 
strong support of this measure. Providing for emergency care, is only a 
small part of the equation, however, and a more comprehensive mechanism 
is needed to alleviate the present circumstances which is loading a 
substantial burden on our Nation's healthcare providers.
    One possible solution is to provide financial support for 
healthcare provided to foreign nationals through the state-sponsored 
Medicaid programs, adjusting the eligibility requirements to facilitate 
coverage of those in need.
    Another possible solution would require the companies hiring 
foreign nationals to provide reasonable healthcare coverage for those 
individuals in their employ.
    There are also measures that we believe can be employed in the near 
term and they include:

        <bullet>  The U.S. Immigration and Customs Enforcement Agency 
        or (ICE or the Border Patrol) should be required to assume 
        financial responsibility for those illegal aliens they request 
        care for. Presently, ICE avoids financial responsibility by not 
        taking technical custody of persons they capture.

        <bullet>  Ensure that agencies responsible for our ports of 
        entry are advised of the existence of border health facilities 
        in Mexico and refer those individuals presenting at border 
        crossing locations with medical issues to health facilities in 
        Mexico versus the United States. In many cases, the Mexican 
        facilities are closer and equipped to provide necessary care. 
        UMC agrees to participate in efforts to support this process by 
        facilitating the education of representatives of border 
        agencies in the Tucson sector.

                                SUMMARY

    Our immigration and border security policies require corrective 
action now. Although recent measures to enhance security appear to be 
reducing the number of illegal border crossers, reform of our overall 
policies is essential. Healthcare should be an integral part of any 
reform efforts. The proposed legislation does not appear to make any 
provisions in this regard, and we believe that a likely result of the 
proposed legislation would be an increase in foreign nationals in our 
country, and thus, an increase in the uninsured. Congress should not 
only enact legislation that protects our citizens, especially in this 
time of conflict, but also must include measures that reduces the 
financial burden of existing and proposed policies on our healthcare 
delivery system.

    Chairman Sensenbrenner. Thank you.
    Professor Cornelius?

                 STATEMENT OF WAYNE CORNELIUS, 
               UNIVERSITY OF CALIFORNIA SAN DIEGO

    Mr. Cornelius. Thank you, Mr. Chairman. I appreciate this 
opportunity to share with the Committee some findings from my 
most recent research which seeks to understand how unauthorized 
Mexican migration to the United States has been effected by the 
border enforcement buildup since 1993. My evidence comes mostly 
from the migrants themselves, over 1300 of whom were 
interviewed by my research team during the last 18 months.
    Our findings are consistent with earlier research showing 
that tightened border enforcement has not stopped, nor even 
discouraged unauthorized migrants from entering the United 
States. The big picture is as follows:
    When we embarked on the current border strengthening 
project, the Border Patrol was making slightly less than 1 
million apprehensions a year. Thirteen years later the Border 
Patrol is making over 1 million apprehension each year. The 
trends in apprehensions and spending on border enforcement 
intersected in fiscal year 2002. Since then border enforcement 
spending has outpaced apprehensions.
    During the period of tighter border enforcement the 
population of undocumented immigrants living in the United 
States has more than doubled in size. Migrants and the people 
smugglers who assist them have detoured around the heavily 
fortified segments of the border.
    Now that the central Arizona border has been reenforced, 
illegal entries have been shifting westward toward San Diego 
where apprehensions are up nearly 20 percent this year and 
eastward toward El Paso.
    Our interviews with undocumented migrants do show that a 
higher percentage of them are being apprehended now compared 
with the 1980's. But even so, only about one-third are being 
apprehended. And even if migrants are caught, they keep trying 
until they succeed. Our interviews show that between 92 and 97 
percent of them eventually succeed, usually on the first or 
second try.
    We found that three-quarters of would-be migrants are 
knowledgeable about U.S. border enforcement operations. About 
two-thirds of them believe that it is now much more difficult 
to cross the border illegally today. But such knowledge has no 
effect on the propensity to migrate.
    Eight out of ten also believe that it is much more 
dangerous to cross the border illegally today. Again, no effect 
on migration behavior.
    To evade apprehension by the Border Patrol and reduce the 
risks posed by natural hazards, migrants have turned 
increasingly to people smugglers which enables the smugglers to 
charge more for their services. Our research in rural Mexico 
shows that more than nine out of ten unauthorized migrants now 
hire smugglers to get them across the borders. The fees that 
smugglers can charge have doubled or tripled since 1993.
    By forcing migrants to attempt entry in extremely hazardous 
areas, the current border enforcement strategy has contributed 
directly to a nine fold increase in annual migrant fatalities 
since 1993. Altogether more than 3700 migrants have died trying 
to cross the southwestern border.
    With clandestine border crossing an increasingly expensive 
and risky business, tighter border enforcement has encouraged 
unauthorized migrants to stay in the U.S. for longer periods 
and settle permanently in much larger numbers, thereby 
increasing outlays for health care and education. In other 
words, we have succeeded in bottling up within the United 
States millions of Mexicans who would otherwise have continued 
to come and go across the border as their parents and 
grandparents had done.
    Additional investment of taxpayer dollars in southwestern 
border enforcement is likely only to produce more of the same 
unintended consequences, not to construct an effective 
deterrent to illegal migration.
    The Border Patrol has reported a 45 percent drop in 
apprehensions in the last 2 months attributing this to the 
President's deployment of National Guard troops. But 
apprehensions have fallen only 3 percent for the whole fiscal 
year to date and there's no hard evidence to support linking 
the recent decline in apprehensions to the presence of National 
Guardsmen on the border.
    It could be argued that today's partial fortification of 
the border fails because of its incompleteness. But complete 
militarism of the U.S. land border--could I have an additional 
minute, please.
    Chairman Sensenbrenner. Without objection.
    Mr. Cornelius.--would inevitably push people smuggling 
operations into the Gulf of Mexico and up the Pacific coast as 
well as to the U.S. Canadian border. Is there a better way? I 
have three main recommendations.
    First, we should legalize as many as possible of 
undocumented immigrants already here to reduce their 
vulnerability to exploitation and increase their contributions 
to tax revenues.
    We should need--secondly, we need to reduce the necessity 
for migrants to come here illegally. And that means the 
temporary worker option for as many as possible of perspective 
migrants who do not wish to remain here permanently and 
increasing the number of employment-based permanent resident 
visas.
    And third, we need to increase the incentives for migrants 
to remain in Mexico to create alternative to migration----
    Chairman Sensenbrenner. The time has expired.
    Mr. Cornelius. Thank you very much.
    [The prepared statement of Mr. Cornelius follows:]

                Prepared Statement of Wayne A. Cornelius

                                SUMMARY

    How have heightened border controls affected the decision-making of 
unauthorized Mexican migrants to the United States? My research 
findings, based on highly detailed, face-to-face interviews with 1,327 
migrants and their relatives in Mexico during the last 18 months,\1\ 
support earlier research showing that tightened border enforcement 
since 1993 has not stopped nor even discouraged unauthorized migrants 
from entering the United States. Even if apprehended, the vast majority 
(92-97%) keep trying until they succeed. Neither the higher probability 
of being apprehended by the Border Patrol, nor the sharply increased 
danger of clandestine entry through deserts and mountainous terrain, 
has discouraged potential migrants from leaving home. To evade 
apprehension by the Border Patrol and to reduce the risks posed by 
natural hazards, migrants have turned increasingly to people-smugglers 
(coyotes), which in turn has enabled smugglers to charge more for their 
services. With clandestine border crossing an increasingly expensive 
and risky business, U.S. border enforcement policy has unintentionally 
encouraged undocumented migrants to remain in the U.S. for longer 
periods and settle permanently in this country in much larger numbers.
---------------------------------------------------------------------------
    \1\ These findings are reported in detail in Wayne A. Cornelius and 
Jessa M. Lewis, eds., Impacts of Border Enforcement on Mexican 
Migration: The View from Sending Communities (Boulder, Col.: Lynne 
Rienner Publishers and Center for Comparative Immigration Studies, 
UCSD, forthcoming 2006); and Wayne A. Cornelius, David Fitzgerald, and 
Pedro Lewin Fischer, eds., Mexican Migration to the United States: The 
View from a `New' Sending Community (Boulder, Col.: Lynne Rienner 
Publishers and Center for Comparative Immigration Studies, UCSD, 
forthcoming 2006).
---------------------------------------------------------------------------
    Drawing on my more than three decades of fieldwork among Mexican 
migrants to the U.S., and a large body of research by other immigration 
specialists, I conclude that a border enforcement-only (or border 
enforcement-first) approach to immigration control will only produce 
more of these unintended consequences while failing to construct an 
effective deterrent to illegal entry. If built, the new physical 
fortifications and virtual surveillance systems included in the 
immigration bills approved by Congress since last December will have no 
discernible effect on the overall flow of illegal migrants from Mexico. 
But these new layers of protection will give people-smugglers an 
additional pretext for raising fees; divert clandestine crossings to 
more remote and dangerous areas, multiplying migrant deaths that are 
already running at 500-1,000 per year; cause more unauthorized 
crossings to be made through legal ports-of-entry, using false or 
borrowed documents; and induce more migrants and their family members 
to settle permanently in this country, thereby increasing outlays for 
health care and education.
    The basic problem with fortifying borders is that it does nothing 
to reduce the forces of supply and demand that drive illegal 
immigration. These forces include: (1) the U.S. economy's persistently 
strong, and growing, demand for immigrant labor, at all skill levels; 
(2) extremely limited worksite enforcement, which has had no impact on 
the demand for unauthorized migrant labor; (3) the very large and still 
growing real-wage gap between Mexico and the United States (at least 
10:1 for most low-skilled jobs); and (4) family ties--over 60 percent 
of the Mexican population have relatives in the U.S.--which provide a 
powerful incentive for family reunification on the U.S. side of the 
border.
    More promising alternatives for reducing unauthorized immigration 
include a broad, earned legalization program; reducing the need to 
migrate illegally through significant increases in temporary and 
permanent visas (especially for low-skilled workers); and a binational 
program of targeted development to create alternatives to emigration in 
migrant-sending areas of Mexico.
    Specific Research Findings
    Since 1993, the U.S. Government has been seriously committed to 
reducing the flow of unauthorized immigration from Mexico, through 
tougher border enforcement. We have spent more than $20 billion on this 
project, and we continue to spend at a rate of more than $6 billion a 
year. Our strategy since 1993 has been to concentrate enforcement 
resources along four heavily-transited segments of the border, from San 
Diego in the west to the South Rio Grande Valley in the east. The logic 
of this ``concentrated border enforcement'' strategy is simple: Illegal 
crossings will be deterred by forcing them to be made in the remote, 
hazardous areas between the highly fortified segments of the border.
    What effect has this strategy had on the flow and stock of illegal 
immigrants?

        <bullet>  When we embarked upon this project in 1993, the 
        Border Patrol was making slightly less than 1 million 
        apprehensions a year. Thirteen years later, the Border Patrol 
        is making over 1 million apprehensions each year.

        <bullet>  The trends in apprehensions and spending on border 
        enforcement intersected in Fiscal Year 2002. Since then, 
        spending has outpaced apprehensions.

        <bullet>  During the period of tighter border enforcement, the 
        population of unauthorized immigrants living in the U.S. has 
        more than doubled in size, to something between 11-12 million.

        <bullet>  Illegal entries have been redistributed. Migrants and 
        the people-smugglers who assist them have just detoured around 
        the heavily fortified segments of the border.

        <bullet>  When we squeezed the border in the San Diego and El 
        Paso areas, it bulged in central Arizona. The central Arizona 
        border was reinforced, and since last fall illegal entries have 
        been shifting westward, to Yuma and the California border, and 
        eastward, to New Mexico and the El Paso area. (San Diego and El 
        Paso had been considered ``operationally controlled'' by the 
        Border Patrol for the past seven years.) Most apprehensions are 
        still occurring in central Arizona, but they are up by 21% in 
        San Diego so far this Fiscal Year.

        <bullet>  The Border Patrol has reported a 45% drop in 
        apprehensions, borderwide, in the last two months, attributing 
        this to the President's deployment of National Guard troops. 
        But apprehensions have fallen by only 2% for the whole Fiscal 
        Year to date, and that could easily turn into an increase for 
        the year if there is a spike in apprehensions during the last 
        three months of the Fiscal Year.

        <bullet>  There is no hard evidence to support linking the 
        recent downturn in apprehensions to the presence of National 
        Guard troops on the border. Anecdotal evidence suggests that 
        the main effect of the deployment has been to drive more 
        migrants into the arms of people-smugglers and enable the 
        smugglers to raise their fees--by $500-1,000 along some 
        segments of the border.

        <bullet>  Our data show that a higher percentage of 
        unauthorized migrants are being apprehended on a given trip to 
        the border than in the 1980s. Even so, only about one-third are 
        apprehended.

        <bullet>  And even if migrants are caught, they keep trying 
        until they succeed. Our interviews with returned migrants in 
        three different Mexican states revealed that between 92-97% of 
        them eventually succeeded, on the same trip to the border.

        <bullet>  If the current U.S. border enforcement strategy were 
        working, we should be seeing that the increased costs and risks 
        of clandestine entry is discouraging prospective migrants even 
        from leaving home. In fact, in our research in Mexican sending 
        communities we have found that three-quarters of would-be 
        migrants are quite knowledgeable about U.S. border enforcement 
        operations.

        <bullet>  About two-thirds believe that it is much more 
        difficult to evade the Border Patrol now than it used to be.

        <bullet>  Eight out of 10 believe that it is much more 
        dangerous to cross the border without papers today, and many of 
        the migrants whom we interviewed personally knew someone who 
        had died trying to enter clandestinely.

        <bullet>  More than two-thirds had seen or heard PSAs warning 
        of the dangers of clandestine border crossings, but fewer than 
        one out of ten said that such messages would have any effect on 
        their plans to migrate.

        <bullet>  It is difficult to overestimate the determination of 
        the people who are willing to take such risks. One of our 
        recent interviewees, a 28-year-old father, told us: ``We don't 
        care if we have to walk eight days, fifteen days--it doesn't 
        matter the danger we put ourselves in. If and when we cross 
        alive, we will have a job to give our families the best.''

    To summarize, this is what we can say about the consequences of our 
13-year experiment with tougher border enforcement:

        <bullet>  Most would-be migrants have become well-informed 
        about the difficulty and hazards of clandestine entry.

        <bullet>  Such knowledge has no effect on the propensity to 
        migrate.

        <bullet>  Unauthorized migrants are willing to take greater 
        risks and pay much more to people-smugglers to reduce risk and 
        gain entry.

        <bullet>  Despite the border build-up, most unauthorized 
        migrants still succeed in entering on the first or second try.

        <bullet>  Migrants' strategies of border crossing have been 
        affected by enhanced enforcement (crossing points have changed; 
        use of smugglers has increased), but illegal entry attempts are 
        not being deterred.

    The unintended consequences of the post-1993 border enforcement 
effort have been more important than the intended ones. The key 
unintended consequences include:

        <bullet>  Creating new opportunities for people-smugglers. 
        Stronger enforcement on the U.S.-Mexico border has been a 
        bonanza for the people-smuggling industry. It has made 
        smugglers essential to a safe and successful crossing. Our 
        research in rural Mexico shows that more than 9 out of 10 
        unauthorized migrants now hire smugglers to get them across the 
        border. And the fees that smugglers can charge have tripled 
        since 1993. By January 2006 the going rate for Mexicans was 
        between $2,000-3,000 per head. But even at these prices it is 
        still economically rational for migrants--and often, their 
        relatives living in the U.S.--to dig deeper into their savings 
        and go deeper into debt to finance illegal entry.

        <bullet>  Making the southwestern border more lethal. By 
        forcing migrants to attempt entry in extremely hazardous 
        mountain and desert areas, rather than the relatively safe 
        urban corridors traditionally used, the concentrated border 
        enforcement strategy has contributed directly to a ten-fold 
        increase in migrant fatalities since 1995. A new record of 516 
        fatalities was set last year, and the real death toll could 
        easily have been twice that many, because we only know about 
        bodies that have been discovered. Since 1995, more than 3,700 
        migrants have perished from dehydration in the deserts, 
        hypothermia in mountainous areas, and drowning in the 
        irrigation canals that parallel the border in California and 
        Arizona.

        <bullet>  Promoting permanent settlement in the U.S. We have 
        succeeded in bottling up within the U.S. millions of Mexican 
        migrants who would otherwise have continued to come and go 
        across the border, as their parents and grandparents had done. 
        Given the high costs and physical risks of illegal entry today, 
        they have a strong incentive to extend their stays in the U.S.; 
        and they longer they stay, the more probable it is that they 
        will settle permanently.

    Additional investment of taxpayer dollars in a border enforcement-
centered strategy of immigration control is likely only to produce more 
of the same unintended consequences--not to construct an effective 
deterrent to illegal migration.
    It could be argued that partial fortification of borders fails 
because of its incompleteness. If the probability of apprehension is 
not uniformly high, migrants will continue to cross in areas where the 
risk of detection is still relatively low. But complete militarization 
of the U.S. land border with Mexico--a sea-to-sea system of physical 
barriers and electronic surveillance--inevitably would push people-
smuggling operations into the Gulf of Mexico and up the Pacific Coast, 
as well as to the U.S.-Canadian border. Mexicans could fly, visa-free, 
to Vancouver or any other Canadian city in close proximity the United 
States and seek to be smuggled across our northern border.
    Securing our maritime borders would be hugely difficult, as the 
European Union has discovered in recent years. This year alone, some 
13,000 economic migrants from sub-Saharan Africa have braved perilous 
seas to try to enter the E.U. via Spain's Canary Islands--this despite 
the world's most elaborate electronic border-surveillance system. 
Thousands more have landed on the coasts of Italy, Malta, and Greece.
    Is there a better way? I have three main recommendations:
    First, we should legalize as many as possible of the unauthorized 
immigrants already here. That will reduce their vulnerability to 
exploitation, improve their mobility within the labor market, increase 
their contributions to tax revenues, and, by increasing family incomes, 
reduce high school drop-out rates and boost college-going rates among 
children of unauthorized immigrants.
    Second, we need to reduce the necessity to migrate to the U.S. 
illegally. That means providing a temporary-worker option for as many 
as possible of prospective migrants who do not wish to remain in the 
U.S. permanently, and substantially increasing the number of 
employment-based, permanent-resident visas that we issue, especially to 
low-skilled workers. Much of today's unauthorized immigration is 
manufactured illegality: It is a direct function of a set of 
immigration laws and policies that unduly restrict the number of legal-
entry opportunities for foreign workers based on their occupations. 
Currently, only 140,000 employment-based visas are available to people 
of all nationalities each year. And of those, only 5,000-10,000 go to 
low-skilled workers. Last year, only 3,200 employment-based visas were 
issued to Mexicans, in a year when more than 400,000 Mexicans were 
added to the U.S. work force through illegal immigration.
    Third, we need to help create alternatives to emigration for a 
larger number of potential migrants in Mexico. Narrowing the U.S.-
Mexico wage gap will be a multi-decade project. Only when the Mexican 
labor force ceases to grow, sometime after 2015, will there be upward 
pressure on wages in Mexico. Apart from changing demographics, 
narrowing the income gap will require deeper economic reforms in 
Mexico: improving the tax effort, modernizing labor laws, opening up 
the state-run energy and electricity sectors to private investment, and 
so forth.
    NAFTA was supposed to have reduced the U.S.-Mexico income gap, but 
has had the opposite effect. Per capita GDP has risen in Mexico, but it 
has risen much faster in the U.S. Today, annual per capita GDP in the 
U.S. is more than 6 times that of Mexico. NAFTA created jobs in 
Mexico's manufactured-export sector, but competition from cheaper U.S. 
imports has put millions of small farmers out of work, and the non-
agricultural jobs that have been created do not pay enough to enable 
most Mexican families to lift themselves out of poverty. It is the real 
wage difference, more than anything else, that drives migration to the 
United States.
    In our research in rural Mexico, we have found consistently that 
the leading motive for migration is higher wages in the United States 
than in Mexico. Only 4-5% of migrants interviewed in most studies 
reported that they were openly unemployed before going to the U.S. In 
our fieldwork earlier this year, we found that only 1% had been 
unemployed before migrating for the first time.
    Micro-development programs, targeted at the areas that send most 
migrants to the U.S., have the capacity to create better-quality jobs, 
in the places where they are needed to discourage emigration. I am 
referring to programs to support small-business development; to create 
new a financial services infrastructure that facilitates saving and 
reinvestment of money remitted by Mexicans working in the United 
States; and programs to expand physical infrastructure--roads, 
telecommunications, irrigation facilities, and so forth.
    The U.S. is no longer in the business of ``Marshall plans.'' But a 
creatively designed and binationally financed program of targeted 
development, perhaps administered by the World Bank or the Inter-
American Development Bank, is an idea that deserves much more serious 
consideration. This is the kind of development assistance that the 
northern EU nations channeled in massive amounts to Spain, Greece, and 
Portugal, before and after these countries joined the European Union. 
It made possible a step-level increase in GDP growth in these 
countries, reduced the north-south wage differential by half, and 
eventually turned all of the southern-tier EU countries into net 
importers of labor.
    This far-sighted approach to immigration control worked in Europe, 
and it could work in North America, if we would stop treating 
unauthorized immigration as a matter of crime and punishment and start 
looking seriously at measures that would actually decrease the supply 
of would-be migrants. The developmental approach has gotten short 
shrift in both Washington and Mexico City, but it is the only approach 
to immigration control that is likely to reduce illegal migration 
significantly in the long run. There is virtually complete consensus 
among academic immigration specialists on this point.
  immigrant contributions to u.s. economic strength and fiscal health
    Since this hearing is examining the economic and fiscal impacts of 
immigration, I would like to conclude my testimony by reviewing some of 
the evidence bearing on these issues, drawing on my own research and 
that of other university-based social scientists who specialize in 
immigration studies.
    There are numerous potential threats to future U.S. economic 
strength and fiscal health, but immigration is not one of them. On the 
contrary, the fact that we are so successful in the global competition 
for labor is one of our greatest strengths. That competitive edge is 
perhaps most evident in terms of highly-skilled immigration. In our 
ability to attract and retain high-skill immigrants, we currently rank 
fourth in the world, behind Australia, Canada, and Switzerland, but far 
ahead of Britain, France, Germany, and Japan.
    We could be doing better in the global competition for highly 
skilled immigrants if we did not set an artificially low limit on this 
kind of immigration. In several recent years, all 65,000 H-1B temporary 
visas that were made available have been exhausted on the first day of 
each fiscal year. The Senate's immigration reform bill would raise the 
cap on temporary, high-skilled/professional immigration to 115,000, but 
most experts consider even that number to be inadequate.
    We are conspicuously successful in attracting low-skilled 
immigrants, and it is important to recognize that the influx of these 
workers is making possible higher rates of growth in numerous labor-
intensive industries than would otherwise be possible. Construction, 
the hospitality industry, and food processing are the most obvious 
examples.
    Most economists believe that large-scale immigration--both low-
skilled and high-skilled--is essential to assure robust economic 
growth, dampen inflationary pressures, and finance intergenerational 
transfer systems like Social Security and Medicare. Because of low 
fertility rates, our total labor force growth has already fallen from 
5% a year in the 1970s to less than 1% since 1990. And without 
immigration, our labor force would be shrinking by 3-4% a year.
    The contribution of immigration to labor-force growth was most 
evident during the economic boom of the late 1990s, but even now, with 
a national unemployment rate of 4.6%--and 3% in Sunbelt cities like San 
Diego, Las Vegas, and Phoenix--we are below what is conventionally 
defined as full employment. If immigrants were not entering our labor 
force in very large numbers, we'd be seriously overheating the economy.
    The longer-term implications of immigration for the U.S.' economic 
strength and position in the world should not be underestimated. Like 
all other OECD countries, we have a population-aging problem. We are 
getting our young, entry-level workers largely from immigration. The 
contrasting age pyramids for our immigrant and native-born populations 
tell the story: 35% of our male foreign-born population in 2000 were in 
prime working age groups, compared with only 24% of the native-born 
population.
    The ``dependency ratio'' in developed countries in general is set 
to rise steeply in the next 10 years and beyond. By last year, there 
were 142 potential labor-force entrants for every 100 potential 
retirees, but in less than 10 years, there will be only 87 labor-force 
entrants for every 100 retirement-age people. Europe and Japan have a 
huge problem, not just because of well-below-replacement-level birth 
rates but because for political reasons, they don't have expansionary 
immigration policies. There are already very large fiscal imbalances in 
the health-care and pension systems of these countries. As UC-Berkeley 
economist David Card recently observed, ``They're going to end up on 
the back burner of the global economy,'' at least in part because their 
immigration policies are too restrictive.
    Immigration at present levels will save the U.S. from labor force 
decline in the short-to-medium run, but it won't be enough eventually, 
because the birth rate among Latino immigrants--our highest-fertility 
group--is already falling sharply. It's still well above whites and 
blacks, but the trend is clearly downward.
    In recent years, immigrants have accounted for more than 90% of the 
labor force growth in some regions of the U.S., like the Mid-West and 
the Northeast. These regions are experiencing a population implosion 
because of both low fertility and out-migration by native-born workers. 
Newly arriving immigrants are heading for these labor-short parts of 
the country, as well as cities in the Southeast and the Rocky Mountain 
states that have robust job growth. These ``new gateways'' for 
immigration absorbed far more immigrants during the past decade than 
traditional gateway cities like Chicago and Los Angeles. Migrants from 
Mexico, in particular, are dispersing themselves geographically to a 
much greater extent than previous generations of Mexican immigrants--a 
healthy trend, because it means that they are not piling up in already 
saturated labor markets where they might depress wages for other 
workers.
    As immigrants have always done, today's immigrants are filling 
particular niches in the U.S. economy. In recent years they have 
accounted for most of the employment growth in occupational categories 
like cashier, janitor, kitchen workers, landscape maintenance worker, 
construction worker, and mechanic. The attributes that these jobs have 
in common are low-skill, low-wage, manual, and often, dirty, 
repetitive, and dangerous.
    In California, immigrants have come to dominate virtually all low-
skill job categories, with over 90% of the state's farm workers, two-
thirds of construction workers, and 70% of the cooks in restaurants 
being foreign-born. At the national level, unauthorized immigrants are 
heavily concentrated in service occupations, followed by construction 
and manufacturing. Only 4% of the unauthorized immigrants in the 
country today are estimated to be working in agriculture. But 
agricultural work is still the occupation most dominated by 
unauthorized immigrants. According to recent estimates by the Pew 
Hispanic Center, about a quarter of all farm workers in the country are 
illegal immigrants; 17% of all cleaning workers; 14% of all 
construction workers; and 12% of all food preparation workers.
    It is important to recognize that, at this point in time, the U.S. 
demand for immigrant labor is structural in character. It is deeply 
embedded in our economy and society. The demand no longer fluctuates 
with the business cycle. Our research on immigrant-dependent firms in 
San Diego County since the early 1980s has shown that even during 
recessions, such employers continue to rely on and hire new foreign-
born workers. The job applicant pools of firms that depend heavily on 
immigrant labor no longer include appreciable numbers of young, native-
born workers--and in most cases, natives haven't been represented for a 
decade or more. That is partly because there aren't enough new, native-
born entrants to the labor market, but also because of changing 
attitudes in our society toward manual jobs.
    Many immigrant-dependent firms have already tried various 
alternatives to hiring immigrants but they find no good substitutes. 
Some businesses may be able to reduce their overall labor requirements 
through further mechanization, but this option is available mainly to 
certain types of agricultural employers--not to those in services, 
retail, and construction.
    Are established immigrants and their offspring stuck in the kinds 
of dead-end, low-wage, manual jobs that are typically held by newly 
arrived immigrants? Many of first-generation immigrants--particularly 
Latinos--do have limited occupational mobility. But the data on 
subsequent generations are much more encouraging: From the first to the 
second generation, there is considerable movement into white-collar 
occupations, and out of low-wage service, construction, and 
agricultural work.
    Even within the first generation, there is significant income 
improvement over time, as immigrants gain new skills, job seniority, 
and English proficiency. Census data analyzed by the Public Policy 
Institute of California show that recently arrived immigrants in 
California have had the steepest decline in poverty since 1993. There 
is still a large gap between immigrants and natives, but the gap has 
closed considerably in the last ten years.
    The largest gaps in income, education, and occupational status are 
between Mexico-origin migrants and the native-born population. But even 
for Mexicans, the big picture is one of progress. There is not much 
change in occupational status among first-generation Mexican 
immigrants, but there is a big jump in the second and third 
generations. In terms of educational attainment, the children of 
Mexican immigrants are doing conspicuously better than their parents; 
they have much higher high-school graduation rates. But the high-school 
drop-out rate is much too high, and college graduate rates are still 
low.
    A major reason why the second and third generations are doing 
better in terms of occupational and educational mobility is English 
proficiency. The transition from Spanish to English-dominance usually 
occurs in just two generations rather than the three generations that 
it took European-origin immigrants who arrived in the early 20th 
Century. These 21st Century immigrants don't need the U.S. Congress to 
tell them that English is the national language. They universally 
recognize that English competence is essential to their economic 
success in the U.S.--and to their children's success.
    Another common misconception is that illegal immigrants are, for 
the most part, working ``off the books'' in the underground economy. 
But all major studies of unauthorized Mexican immigrants completed in 
the last two decades have found majorities of them working for 
``mainstream,'' formal-sector employers. They get regular paychecks and 
have state and federal taxes deducted from their earnings.
    Among more than 700 Mexican immigrants interviewed by my research 
team in January-February of this year, after they had returned to their 
home town in the state of Yucat n, fewer than one-quarter had paid no 
federal income taxes during their most recent stay in the United 
States, while 75% had had taxes withheld from their pay, or filed a tax 
return, or paid taxes both by withholding and tax return. That is clear 
evidence that these are not ``underground'' workers contributing 
nothing to public coffers. While the states and localities that provide 
services to unauthorized immigrants are disproportionately impacted, 
this is a revenue-sharing problem that should be addressed through 
federally financed, immigration impact-assistance programs.
    One final point about economic incorporation: Mexicans and other 
first-generation immigrants tend to have extremely high labor-force 
participation rates. Illegal immigrants are the most fully employed, 
with 94% of the men in the work force--significantly higher than 
native-born Americans. As economist David Card had observed: ``These 
workers may be low-skilled, but they have incredibly high employment 
rates.'' A broad legalization program would increase the U.S.' rate of 
return on these immigrant workers by incorporating them more fully and 
enhancing the human capital that they bring.

                               ATTACHMENT

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Sensenbrenner. Now Sheriff Baca and Mayor 
Antonovich have to leave at 3:30. So in order for as many 
Members as possible to ask questions of them as well as the 
other members of the panel, the Chair will strictly enforce the 
5 minute rule. The Chair will also defer his questions until 
the end.
    The gentleman from California, Mr. Gallegly is recognized.
    Mr. Gallegly. Thank you very much, Mr. Chairman, and thank 
you for holding this meeting today in beautiful California.
    Supervisor Antonovich, we've known each other for a lot of 
years and I know your commitment to this issue. We've talked 
about it personally for over 20 years.
    I found your testimony interesting in many ways, but one of 
the issues had to do with the criminal justice system where you 
were referring to the cost of catching criminal aliens, 
prosecuting them and incarcerating them. And then I was 
interested in your next category, providing them with the cost 
of probation. Could you explain to me why you were providing 
them probation rather than the fact that they would be 
deported?
    Mr. Antonovich. Well, when you consider the Probation 
Department is part of the judicial system. When you're going 
through a court trial, the Probation Department has to fill out 
information to give to the judge when they determine the 
sentencing for that individual.
    Mr. Gallegly. Most of them stay and----
    Mr. Antonovich. Regardless if they're going through the 
system and many are--you know, what do we have in our State 
prison? About 33 percent of our State inmates in our State 
prisons are illegal. They've gone through the criminal justice 
system. And along with providing a district attorney and a 
public defender, the court relies upon the Probation Department 
to give a report as to that individual's status.
    And then you also have juveniles that are in the probation 
system that are not here illegally, and those are costs for 
those programs for board and room.
    Mr. Gallegly. Mike, do you know offhand what the estimated 
percentage of population of illegal immigrants in LA County is?
    Mr. Antonovich. It's approximately 12 percent we've been 
told.
    Mr. Gallegly. Okay. Sheriff Baca, you mentioned that your 
jails have a 26 percent population of illegal immigrants as 
criminal aliens that are not in jail for an immigration 
violation but crime against another person. Then based on what 
Mr. Antonovich said, would it not then be accurate to say that 
an illegal immigrant is more than twice as likely to commit a 
crime in Los Angeles County than an American citizen?
    Sheriff Baca. I can't be----
    Mr. Gallegly. Is convicted of committing a crime? If you 
have 26 percent of your population and only 12 percent--that 
are in jail and only 12 percent of the population are illegal, 
those numbers seem to be disproportionate to the percentage of 
American citizens.
    Sheriff Baca. Yes, I think you can make that assumption.
    I also want to say that 40,000 illegal immigrants are in 
State prison of California. And this shows clearly that 
California as a State has been burdened with this problem from 
a criminal point of view more than any other State in the 
United States. And so we really have a sense of a disaster 
going on right now when it comes to crime committed by illegal 
immigrants after they've arrived here, penal code sections, 
Federal laws, State and Federal laws combined.
    Mr. Gallegly. If I might ask, I know we have a real tight 
schedule here, but if my memory serves me correctly and correct 
me if I am wrong, but you are recently quoted I believe in an 
L.A. Times article that last year your jail released 21,000 
plus or minus people pretty much early, in many cases booked 
and released on the same day because of jail overcrowding. Is 
it accurate that you had 21,000 people that did not serve the 
term that the judge gave because of the lack of bed space which 
could be directly attributed to a 26 percent jail population of 
illegal?
    Sheriff Baca. Yes. And all 58 counties in California 
including the station prison system are gridlocked because 
they're all at capacity. And, of course, if my percent of 25 or 
26 percent holds across the board and I know it varies in the 
different counties, we're looking at essentially a jail system 
and a prison system that is moving a stronger number toward 
incarcerating more illegal immigrants who are committing penal 
code violations----
    Mr. Gallegly. Sheriff, forgive me for interrupting you, but 
could you tell me if a large percentage of these that are 
released early are actually booked and released the same day in 
a matter of a few days and for what types of crimes? would it 
be like drunk driving, spousal abuse, assault; crimes like this 
that don't really serve their terms?
    Sheriff Baca. Yes. They are what are known as county 
sentenced prisoners, 1 year or less in county jail. And the 
categories you identified and others are.
    Mr. Gallegly. And many are booked and released the same day
    Sheriff Baca. Within a couple of days.
    Mr. Gallegly. Thank you, Mr. Chairman.
    Chairman Sensenbrenner. The gentleman's time has expired.
    The gentleman from California, Mr. Berman.
    Mr. Berman. Thank you, Mr. Chairman.
    Mike, nice to be with you again. And you cited--your 
testimony made some compelling conclusions that I think are 
pretty accurate about the costs in health care and education 
and in prisons of people who have entered this country 
illegally or who have over--some portion of the people who have 
entered this country and overstayed their visas. What does the 
House bill do about any of those costs?
    Mr. Antonovich. For housing?
    Mr. Berman. No. What does the House passed bill, the
    Sensenbrenner bill, as referred to affectionately, do about 
any of those issues or do you know, or can I suggest to you 
that the proposition that it does nothing about that is the 
accurate conclusion?
    Mr. Antonovich. The enhanced and enforcement would 
eliminate a large number of future illegals from coming here.
    Mr. Berman. Perhaps. And as to your existing costs----
    Mr. Antonovich. But right now----
    Mr. Berman. You've talked about reimbursement from the 
Federal Government for health care costs, reimbursement for 
prison costs. The White House zeros out proposed funding for 
reimbursement to State and local governments for prison costs. 
It proposes nothing. The House appropriators, notwithstanding 
our recommendations to the Budget Committee, never fully fund 
reimbursements to State and county governments. We have 
woefully fallen short of at least helping local taxpayers in 
the most impacted areas and particularly in California.
    Mr. Antonovich. The House----
    Mr. Berman. We're dealing with the cost of the failure of 
the Federal Government's immigration policy.
    Mr. Antonovich. Well, you have a patient that's bleeding 
and the House bill applies a tourniquet to the wound which 
allows the bleeding to stop and then we can begin focusing on 
the cost and the problems that we have. But having a legal 
permit system in place would also provide opportunities for 
people to come here to work legally and then return to their 
country.
    Mr. Berman. Would it be fair to say that neither the House 
bill nor the congressional efforts or White House efforts up to 
this point have dealt effectively with the costs of illegal 
immigration to local governments?
    Mr. Antonovich. When a bill goes into Conference----
    Mr. Berman. Are you willing to say that?
    Mr. Antonovich. I'm willing to say that. When a bill goes 
into Conference----
    Mr. Berman. Okay. Then my next one----
    Mr. Antonovich.--that's why I threw out that----
    Mr. Berman. I'm limited on time, that's my only problem.
    Professor Cornelius, I'd like to ask you and Mr. Rector a 
question. 1986 we passed a legalization program. You mentioned 
some things that should be done to deal with what you think is 
the ineffectiveness of our border enforcement program. But it 
is fair for critics of that '86 bill to say that the notion 
that you could come to this country and get legalized becomes a 
pull. So nothing in your proposals dealt with what would stop 
additional millions from wanting to come to this country once 
you legalized and adjust the status, which I personally happen 
to think that you need to do. But how do you deal with the 
magnet that that act creates in encouraging more people to come 
illegally in the hope that one day they will be legalized?
    Mr. Cornelius. Well, the best----
    Mr. Berman. And I have one question after that, Mr. 
Chairman. Okay.
    Mr. Cornelius. The best evidence that we have about the 
1986 legalization is that it had a short term stimulus effect 
on undocumented migrants, wives and children of men who were 
undergoing the legalization process. After about 18 months that 
effect disappeared.
    Mr. Berman. Well, you've talked about increases in people 
coming. Some people say it's proposals to--the Bush proposal on 
guest workers or some of the other proposals that have 
incentivized more people to come. Why do you discount that as a 
motivation for additional people trying to come.
    Mr. Cornelius. It could be a motivation for a very small 
minority. We asked, in fact, in the survey that we conducted 
just a few months ago. I'm skeptical of methodology which----
    Chairman Sensenbrenner. The gentleman's time----
    Mr. Berman. Could I ask consent for one additional minute. 
I just----
    Chairman Sensenbrenner. Well two of our witnesses have got 
to leave at 3:30. And I think everybody would like----
    Mr. Berman. Okay.
    Chairman Sensenbrenner. The gentleman from Ohio, Mr. 
Chabot.
    Mr. Chabot. Thank you, Mr. Chairman. I thank the Chairman.
    I would just note first of all before I get on to my 
questions, that relative to the '86 bill which was supposed to 
have control of our borders and which did clearly have amnesty, 
at that time we had about 2-2\1/2\ million people here 
illegally according to estimates at that time. Now that was 
tried, clearly it didn't work because they didn't get control 
of our borders. And now we're talking in the House bill of 
seriously dealing with controlling our borders, but the Senate 
bill which includes anything that approaches amnesty when you 
consider when we went from 2\1/2\ million to probably at least 
12 million now here illegally in this country to me is just 
something that would be the wrong direction for us to go. And I 
don't think we're going to go that way, but I know that many in 
the Senate think that that's the way we should go. I totally 
disagree with that.
    Congressman King and I had the opportunity before coming to 
this hearing, since we had some time between our flights 
arriving this morning and this hearing, had an opportunity to 
go down to the border and meet with the border folks down there 
and see firsthand some of the things that they're dealing with. 
And, you know, in some places you have triple fencing, some 
double and some just a single fencing. And I know there was 
some frustration because they haven't been able to get cameras, 
apparently, in much of the places down there. And so that's 
something, I think, and perhaps Sheriff Baca, I don't know if 
you wanted to comment on that. But that would seem to be 
something that would be very helpful.
    In addition to that, some of the frustration was the fact 
that when they pick these folks up they take them back down to 
Mexico and release them. And in one area where they have to 
release them, they have to do it at night because to do so in 
the daytime would be embarrassing to the Mexican government, 
which seems that perhaps the Mexican government should be 
embarrassed because they are in many cases I think helping to 
have this continue to be an ongoing problem as it is. But, 
Sheriff Baca, if you could comment on the cameras, first of 
all?
    Sheriff Baca. Well, I think that the cameras are a very 
important tool. I also think, although there's a variety of 
opinions on this, that a wall needs to be built. And in this 
respect it doesn't mean that it's an inhumane effort to--
message that the people in America doesn't have an open process 
for immigration. But everything about security involves 
something physical. You cannot put a chain of human beings on 
the border and say you have a security system if that chain of 
human begins will take 5 to 10,000 people arm-to-arm.
    Unfortunately, law enforcement and public safety is a 24 
hour and 7 day a week endeavor. And if you don't have all the 
human resources that are necessary to seal off the border, the 
only thing you have are cameras and a wall. And you have to 
have a system in place that's a human system to back it up.
    Mr. Chabot. Thank you.
    Mr. Rector, if I could go to you next. Some have said that 
illegal immigrants if they were granted amnesty, that they 
would no longer be working off the books and would become 
taxpayers. However, isn't it the case that once they became 
legalized, illegal immigrants could then qualify for the earned 
income tax credit and the Federal Government would actually 
have to write checks every year to a number of these people, 
and could you comment on that?
    Mr. Rector. Absolutely. The numbers I gave did factor in 
the idea that if they were made legal, that they would both 
have high----
    Chairman Sensenbrenner. Pull the mike closer to you and 
push the button.
    Mr. Rector. The numbers I gave suggest--they were based on 
the assumptions that they would pay more in taxes once they 
became legal. Even their wages would go up if they had a 
broader market to compete in. But that that would be vastly 
offset by the increased eligibility for all sorts of different 
Government programs.
    Currently their children are mainly citizens so they get 
welfare, but the adults don't. And for example, the earned 
income tax credit. The earned income tax credit provides 
refundable cash to people that makes less than $30,000 year. As 
a result of that the typical family of four in the United 
States that makes less than $25,000 a year, once you factor in 
the earned income tax credit plus the refundable child credit, 
they don't pay any taxes at all to the Federal Government if 
they make less than $25,000 a year. In fact, they get cash 
back. They don't pay any income tax on average unless they make 
over $40,000 a year.
    So you're exactly right that although you might 
theoretically get a little bit more in taxes, it's vastly 
outweighed by the increase in benefits that they would receive, 
and that's just the tip of the iceberg. We can go on with 
Medicaid, SSI----
    Chairman Sensenbrenner. The gentleman's time has expired.
    The gentlewoman from Texas, Ms. Jackson Lee.
    Ms. Jackson Lee. Let me thank the Chairman very much, and 
allow me to thank the Marines for their service.
    But simply offer a question as to whether or not a 
community-based site could have been selected so that the 
premise of these hearings could really be valid so that those 
who live in San Diego would really have real access and real 
opportunity to participate.
    I do acknowledge Ms. Luevano, the State Director of the 
California League of United American Citizens and I'm delighted 
that our hero, Dolores Morales Huerta, United Farm Workers, is 
also in the room. I imagine there may be some others.
    I want to start from the perspective of my history, since 
our time is very short, but what I would simply say is that 
John F. Kennedy said ``The great enemy of the truth is very 
often not the lie--deliberate, contrived and dishonest--but the 
myth--persist, pervasive and unrealistic.'' Belief in myths 
allows the comfort of opinion without the discomfort of 
thought.
    And so what we have today in this series of hearings is, of 
course, myth. It allows people to be comfortable in their 
thoughts without anyone giving information to the contrary.
    Might I say to my colleagues and to the witnesses 
Republicans control the White House, the Senate and the House 
and yet due to their infighting is the reason why we're here 
today.
    I hold in my hand, having just recently come back from 
Iraq, the bars of a sailor who took them off of his shoulders 
to share with me as we traveled throughout the region and wound 
up in Spain on the base that supports many of those in Iraq. 
This soldier has a history of an immigrant. This soldier has a 
wife of which he is attempting to reunite and to provide a 
legal access to citizenship.
    This is a person that we are maligning here today. This is 
a symbol of an undocumented individual.
    Chairman Sensenbrenner. The gentlewoman from Texas is 
entitled to her opinion.
    Ms. Jackson Lee. Thank you, Mr. Chairman.
    Chairman Sensenbrenner. And the Chair would appreciate it 
if those who agree with her and those who disagree with her 
would listen to what she has to say. And then somebody else 
will take the opposite position and is entitled to the same 
respect.
    The gentlewoman from Texas.
    Ms. Jackson Lee. Thank you.
    This is who we're maligning today.
    I hold in my hand the Senate bill that is not named Reid-
Kennedy. The signatures on this bill is Senator Brownback, 
Senator Chuck Hagel, Senator Martinez, Senator Lindsey Graham, 
Senator Kennedy and Senator McCain. This is the bill. There is 
no Reid-Kennedy bill.
    I will put in the record a series of rebuttals to this 
huge--or this question, this myth about how much cost these 
various undocumented individuals may wind up costing.\1\
---------------------------------------------------------------------------
    \1\ The information referred to was not available at the time this 
hearing was printed.
---------------------------------------------------------------------------
    I will put into the record a statement, an article from the 
Houston Chronicle that says ``Immigrant bill might be doomed 
this year. Bush's call for action delayed by House plans for 
public hearings.'' And a statement by Representative Jeff Flake 
whether they're trying to kill the immigration bill, a 
Republican out of Arizona, or not this could be the death knell 
and he's talking about his colleague's hearings.
    Let me ask the question to Professor Cornelius and I'll 
make it combined question. What happens when we don't have 
comprehensive immigration reform and what real security 
benefits does an enforcement only solution provide?
    Before you answer that, I want to thank Sheriff Baca for 
his service and commend him to HR 44-44. It's a Democratic 
bill, but it provides for a 100,000 detention bill. And it 
answers this question about border security by the numbers. It 
quickly tells you that we worked under the Clinton 
Administration with Border Patrol agents 1993 down in the Bush 
Administration. Fines for immigration enforcement up in the 
Clinton in 1990 and now down in the Bush Administration. 
Seventy-eight percent fewer immigration court cases; 6,000 
under Clinton and 1,300 under Bush.
    Would you answer the question, Mr. Cornelius what happens 
with an enforcement only solution?
    Chairman Sensenbrenner. The time of the gentlewoman has 
expired.
    The gentlemen from Indiana, Mr. Hostettler.
    Mr. Hostettler. Thank you, Mr. Chairman.
    At this time, Mayor Michael Antonovich, I would like to 
release you from the existential prison that our colleague Mr. 
Berman has constructed for you and to ask you what would happen 
under a very aggressive enforcement of our immigration laws, 
especially with regard to employer sanctions that were put in 
place in 1986?
    Mr. Antonovich. It would eliminate incentives for people to 
come here illegally. It would allow us to focus on on the 
problem of those that are here. But right now with more coming 
in daily, the costs continue to escalate.
    Having, you know as I said, a Social Security verification 
program where the employer can verify that Social Security for 
that employee with the Federal Government being responsible to 
enforce that provision, again provides a disincentive for 
people to come here to work illegally.
    I mean, we need legal immigration. We're all products of 
immigration. But you need legal, not illegal. Illegal you're 
only rewarding those to break the law for future times.
    As Howard knows, we supported the Simpson-Mazzoli, we 
worked on that bill. And what's missing, and we're finding out 
not having a strong enforcement and all of the Administrations 
have not done well with the enforcement. We know that the 
Border Patrol needs more personnel. And that's why we said do 
what we do in local law enforcement. We have reserve components 
who are trained people who can go and assist and back up--with 
the patrol. That gives you additional personnel. But you need 
to have a secure border. You need to have respect for the law. 
If you don't like the law, then change the law.
    Mr. Berman. Would the gentleman yield for 10 seconds? Ten 
seconds?
    Mr. Hostettler. Ten.
    Mr. Berman. But you have to pass a bill. And like the House 
bill, it's not going to pass.
    Mr. Hostettler. Reclaim my time. Reclaim my time.
    Simpson-Mazzoli that passed in 1986 not only make it 
unlawful to hire new illegal aliens, it also makes it unlawful 
to employ illegal aliens, does it?
    Mr. Berman. Yes.
    Mr. Hostettler. So it does not only have a chilling effect 
on the incentive for new hires and new illegal entry across the 
borders, but with regard to aggressive enforcement today it 
says if you've been working illegally at a place as a result of 
your illegal residence in the country at a place of employment 
for 20 years, you're still subject to deportation. I mean, 
you're still subject to employer sanctions, I should say.
    Mr. Antonovich. Employer sanctions, exactly.
    Mr. Hostettler. So it not only takes the incentives away 
from future entries in the country by illegal aliens, but it 
also eliminates the motivation for employers to maintain their 
employment of even long term illegal aliens in the country.
    Mr. Antonovich. Right. And have a process where people can 
come back and apply for green cards that come in legally to 
work.
    Mr. Hostettler. Thank you.
    Mr. Burns, in your testimony you talked about $5 million 
cost for foreign nationals. Is that a net cost meaning do you 
take the foreign nationals who are a net contributor to health 
care costs at your hospital and those that are a net deficit to 
your hospital?
    Mr. Burns. That is correct. The numbers I reflect at net 
reimbursement, which is fairly immaterial.
    Mr. Hostettler. So that is a net number and so is your 
experience that foreign nationals in the country at this point 
are a net deficit to health care in your hospital?
    Mr. Burns. This is a small microcosm. It's been a net cost 
to University Medical Center in caring for foreign nationals, 
that is true.
    Mr. Hostettler. From the testimony that you've heard from 
Mr. Rector do you agree that legalizing, amnestizing the 
individuals who are currently illegally present in the country 
will lead to future high levels of negative reimbursement of 
deficit funding, you might say, without some significant 
Government intervention because of the skill levels of the 
immigration population today that is to be amnestized?
    Mr. Burns. Let me take a stab at answering your question. 
Regardless of their skill levels of the individuals, currently 
the majority of the people that we see at our hospital that are 
foreign nationals actually came across the border legally and 
they're here already. And so the funding mechanism for those 
individuals largely doesn't exist now, although there's some 
funding under Federal Emergency Services.
    So if you make these folks legal, we will have the same 
situation as we have now, and that is there are not adequate 
funding for health care providers for those individuals.
    Mr. Hostettler. And one more question.
    Chairman Sensenbrenner. The gentleman's time has expired.
    The gentleman from California, Mr. Issa.
    Mr. Issa. Thank you, Mr. Chairman.
    Mr. Cornelius, I know you've been patiently waiting to 
answer Ms. Jackson Lee's questions, but I have a few of my own.
    In your testimony you said that one of the recent 
interviews--one of our recent interviews a 28 year old father 
told us we don't care if you have to walk 8 days, fifteen days; 
it doesn't matter the danger we put ourselves in if and when we 
cross alive, we will have a job to give our families our best. 
And then later you also say in your statement it is a real wage 
difference more than anything else that drive migration, you 
use the term migration as does the Mexican government, to the 
United States. In our research in rural Mexico we have found 
consistently that the leading motive for migration is higher 
wages in the United States than in Mexico. Only four to 5 
percent of migrants interviewed in our most recent studies 
reported that they were openly unemployed before going to the 
U.S.
    Now, I put those two together and I'll phrase the 
questions. Essentially what I hear you saying is these people 
want to be part of our system for more money. They're in a 
country which is not the first world, but it's richer than 
probably 3+ billion to 4 billion people in other countries of 
the world, but they're able to get through their Government, 
through their country, get to our border and come in illegally 
and they're taking advantage of that. And that's basically it. 
It's not--they're not be persecuted or prosecuted, their 
country is not holding them in some sort of an evil tyranny. 
They simply don't make enough money and they come here to make 
more. That's what I think you said in your statement. Is that 
correct?
    Turn your mike on, please. Sadly enough you had it on for 
the last 5 minutes and then you turned it off for me.
    Mr. Cornelius. Not at all, Congressman.
    Clearly the wage differential is what's driving most of the 
migration.
    Mr. Issa. Okay. So if we assume that, and I think you hit 
it right on the head in your statement, then am I correct and 
maybe, Mr. Rector, you're much more the economist here, I'm 
correct in saying that out of 6 billion people in the world, 5 
billion are dramatically poorer than the United States? It's 
really the United States, Western Europe, Canada a couple of 
other places in which there's real wealth, is that correct?
    Mr. Cornelius. Absolutely. I think you could easily say 
that if they were able to do it, you'd probably have 3 billion 
people across the globe that would like to come here because 
they could make more money. What we face is a society that's 
really unique to any industrial nation is that we share a 2,000 
mile open border with a less developed economy and we do not 
sanction those people when they come here and get employed, 
that's why they're here.
    Mr. Issa. You know, my grandfather came through Ellis 
Island. And so every time I hear the quote from the lady at the 
bottom of the statue I think about the fact that it was a 
broad-based immigration. People from all over the world in 
dissimilar numbers but in very diverse numbers came to this 
country.
    Our first hearing, Mr. Chairman, the number of illegals 
caught at the border last year in San Diego, 108,000 Mexicans--
108 illegals caught, 107,000 Mexican, 1,000 other than Mexican 
but basically Hispanic, Guatemalan being the number two and 47 
people of interest.
    Substantially what we're doing with a broken border is 
we're simply making a selection that one country gets all the 
benefits that the Statue of Liberty awards and all the other 
countries get slipped out from that benefit. And I would say 
that from an economic standpoint, even if we assume what we 
have heard today in undeniable terms, and that is that it does 
cost us to bring people into this country; they do not start 
off as net payers, what is the basis to assume that with our 
broken border system that we should bring in disproportionately 
99 percent from any one country. Can anyone answer that here 
today? That's the one question I want to know is why is it we 
will perpetuate a system of getting 99 percent to one country 
when the Statue of Liberty intended us to look at the 
downtrodden of the world equally.
    Thank you. I yield back, Mr. Chairman.
    Chairman Sensenbrenner. The gentleman from Iowa, Mr. King.
    Mr. King. Thank you, Mr. Chairman. And I want to thank you, 
Mr. Chairman, for holding this hearing here in San Diego. And I 
want to thank the witnesses as well for their testimony.
    First I'd like to direct my first question to Mr. Burns, 
and particularly thank you for being here to testify today. I 
mean, I understand and I want to make sure that it is clear 
that you are the only trauma center left in southern Arizona.
    Mr. Burns. That's correct.
    Mr. King. And my question with regard to that is can you 
imagine a scenario by which another health care provider would 
open up a trauma center in southern Arizona or is no trauma 
centers near the border the future for America?
    Mr. Burns. Well, I'll take the first question. Right now in 
talking to my colleagues in the marketplace, there are none at 
this time that are expressing an interest in opening up a 
trauma center.
    As far as the second question, I don't know if I can answer 
that.
    Mr. King. And I would seek to do that, but I think the 
implication is adequate. And I have a sense of the kind of 
struggles that you have.
    And then you talked about how when a truck wrecked and you 
had 13 IC patients and other outcare patients, I assume, that 
weren't quite so severely injured, filled up your IC unit. And 
I didn't hear in your testimony what the Tucson residents that 
support your facility do for intensive care service during a 
time when it's full.
    Mr. Burns. Well, first off, we're proud that we've not 
turned away any of the trauma reds. But there are times when we 
have to send patients to other locations. Sometimes up to 
Phoenix if we need to. That's rare, thankfully.
    Regular emergencies, though, we work with a complex system 
with the other seven or eight hospitals in the community and we 
move patients to those locations as needed. But it does put an 
immense stress and there's a lot of background motion required 
to take care of that when that occurs.
    Mr. King. Do the residents of Tucson, do they let you know 
what they think?
    Mr. Burns. The residents of Tucson have been extremely 
supportive of UMC taking on the role as a sole level 1 trauma 
center. But the one thing that we do hear about are the longer 
waits that we have in our emergency department. Those have 
increased dramatically in recent years.
    Mr. King. Thank you, Mr. Burns.
    And then turn to Sheriff Baca. And I'd ask you to fill out 
some numbers for me. Part of your response to one of the 
questions was, I believe that you have 12 percent illegals in 
Los Angeles County. Can you let me know what is that for a 
gross number? How many people?
    Sheriff Baca. That would be about 1.2 million people.
    Mr. King. 1.2 million people. And so that would be from 
this side of the table representing about two congressional 
districts. We each represent about 600,000 people.
    Sheriff Baca. Yes.
    Mr. King. And I'd point out that in our Census that we have 
every 10 years, we count people not citizens. And when we do 
that, we apportion congressional districts accordingly. And so 
the representatives who represent those districts with those 
kinds of numbers with illegals in there are also the 
representatives for noncitizens. And I wanted to just get a 
sense of this down here because I know what we think of that in 
Iowa. We think citizens should be represented in the United 
States Congress. I'm glad to hear that there's not--obviously 
some resent in this room, and I appreciate that.
    And I thank you, Sheriff Baca. This is a very difficult 
task that you have in front of you. And I know I have a lot 
more questions, but I'd like to turn to Dr. Rector.
    And if I could ask you, Dr. Rector, if you could give us a 
range of numbers of numbers that the Senate bill has passed 
would legalize into the United States, and maybe a low and a 
high and if you could span it over about 20 years because some 
of these kick in a little late?
    Mr. Rector. Yes. The original Senate bill basically was 
what I would call stealth open border bill and it didn't tell 
anyone that what it did quietly was expand virtually every 
category of legal immigration so that the amnesty in it was 
just the tip of the iceberg.
    Now when we review the level of immigration, which I 
believe was originally 100 million immigrants, there was an 
amendment by Senator Bingaman and it's now cut down so that I 
believe that the bill would now admit about 60 million 
immigrants to the U.S. over the next 20 years. Twenty of those 
are the core people that would be coming in under current law, 
another ten are the amnesty recipients. But then in addition it 
has roughly another 30, it more doubles the current rates of 
legal immigration and----
    Mr. King. And if I could quickly, Dr. Rector, then it's 
more or less immigrants?
    Mr. Rector. Probably more. It's an open border bill. It is 
a truly astonishing bill. It basically says anyone that wants 
to come to the United States can come here without any 
limitation whatsoever. And it's not advertised that way, but I 
look at the details of what the bills actually do, and I think 
that's very----
    Chairman Sensenbrenner. The gentleman's time has expired.
    The gentleman from Texas, Mr. Gohmert.
    Mr. Gohmert. Thank you, Mr. Chairman. And I appreciate your 
being here.
    First I want to address very quickly the comments from my 
good friend Mr. Berman about we should have had this hearing 
before the immigration bill. Actually, as part of the 
Immigration Committee we have had hearings. And the reason that 
it's a good idea to have these now is we're at an impasse. 
We've got people in the Senate with a different idea and so if 
we're at a stalemate, what better time to come back and make 
sure where we are, are we doing the right thing and having 
additional hearings. And I'm not ashamed to say, yes, it's a 
McCain-Kennedy bill; it is. Apparently Senator McCain, as the 
saying goes, politics makes strange bed fellows and he chooses 
to crawl in bed with Senator Kennedy and we need to have 
hearings to see if it's appropriate to crawl in bed with 
Senator Kennedy.
    And then with regard to my good friend Ms. Jackson Lee from 
Texas, she says we're here due to Republican infighting. I 
would submit it is a good thing for a party to have 
disagreement. That's a good thing. The real reason we are here 
is because the Democratic Party is in lockstep with their 
leaders, Senator Kennedy, Senator Reid and those folks. If they 
would be objective and have some disagreement among themselves, 
then we wouldn't have a need for this kind of hearing.
    And as far as maligning a soldier of the United States, I 
was only in the Army for 4 years and I still have to say I love 
this Marine base. This is a great place to be. Nobody is 
maligning a soldier of the United States Army in these 
hearings. That is completely inappropriate and it's not 
happening.
    I would like to ask quickly, Mr. Burns, from your hospital 
in Tucson do you do any obstetrics?
    Mr. Burns. Yes.
    Mr. Gohmert. Do you have any idea what percentage of babies 
born in 2005 were to mothers who were illegally here?
    Mr. Burns. I don't have that data, but certainly we could 
have----
    Mr. Gohmert. I have an obstetrician in Tyler which is 
hundreds of miles from the border of Texas up in northeast 
Texas tell me that perhaps 40 percent of babies born in Tyler 
last year were born illegally or to mothers who were illegally 
in the United States.
    Let me just touch on one thing. There's a lot of talk about 
why immigrants are coming illegally to the United States; what 
should we do, how should we penalize people here. You really 
want to go to the real problem. It's not here, it's in Mexico.
    Mr. Burns. Yes.
    Mr. Gohmert. You know, why are they coming here? Why are 
people maligning the United States saying we're dividing 
families? It's Mexico that's dividing the families. And the 
incredible irony that's been going on around here, as an old 
judge and chief justice, we believe enforcing the law. This has 
been a nation of laws. And what has happened has been--if 
you'll bear with me, what has happened has been we have people 
coming in and saying we're having to leave Mexico because 
Mexico has not enforced their laws. It's been a nation where 
there is far too much corruption. So it's not because they have 
a lack of workers in Mexico. It's not because--they have 
incredibly good workers, they have skilled workers, they have 
incredible natural resources. The difference has been we have 
been a nation of laws and they have not.
    So as a judge who sometimes--I've sent friends of mine to 
prison, I've sent children of friends of mine to prison and 
gone back in my office and wept because I knew the heartache 
involved. But I also knew that if they were not my friends and 
children of friends I would have sent them to prison and we had 
to apply the law evenly across the board. That's what's made 
America great.
    And I'd be curious to know, Mr. Rector, I've just got a few 
seconds, what do you say we ought to do to put pressure on 
Mexico to be the kind of country and neighbor they ought to be?
    Mr. Rector. Well, I don't--I think that the graph that 
Professor Cornelius has here is pretty telling. We look back 
over many, many years there's always a consistent wage 
difference between the United States and Mexico. It seems to me 
that there will always be a huge incentive for people to come 
here. And the difference is that we've sent out a very strong 
message in the last 20 years that, hey, you can come here and 
we're not going to do anything about it. And a lot of this 
migration is what I would call social network learning. They've 
learned this is the deal. And until we begin to enforce not 
only the border, but more importantly to actually implement the 
1986 law and to say----
    Mr. Gohmert. Yes, but those are things that we would do in 
this country. I'm looking for things to put pressure on our 
neighbor to do the right----
    Chairman Sensenbrenner. The gentleman's time has expired.
    The Chair now recognizes himself for 5 minutes for some 
questions and a couple of comments.
    First of all, I was a Member of the Immigration 
Subcommittee at the time that the Simpson-Mazzoli bill was 
written in 1985 and 1986. I voted against it in the belief that 
it didn't work, and I was right. It didn't work. Because we've 
gone from 2\1/2\ million to approximately 11 million illegal 
immigrants in this country. And that has led me to believe that 
it is important to do any immigration reform bill right. 
Because if we blow the second opportunity, the problems that 
are caused by the 11 million illegal immigrants that our 
witnesses have testified about will be multiplied by a factor 
of five to ten. And this country can't afford it.
    And I think Mr. Issa hit the nail on the head that because 
of the way that the Simpson-Mazzoli bill failed, where we are 
welcoming immigrants is from one country. And if we do not 
control illegal immigration, we will end up shutting the door 
on legal immigration. And that would be turning the back on the 
history of this country. We should be a nation of immigrants 
and of laws. And if we don't enforce the laws, the type of 
immigration that we get will change dramatically from the type 
of immigration that has made our country great.
    Now secondly, Simpson-Mazzoli failed because employer 
sanctions were not enforced. It's always cheaper to hire an 
illegal immigrant than it is to hire a legal immigrant with a 
green card or a United States citizen. And if we don't secure 
the border and enforce employer sanctions first, even if we 
give amnesty to the illegal immigrants that are already here, 
which I am opposed to, legalizing themselves will simply price 
themselves out of their jobs. So the legalization will end up 
failing or if it succeeds, there will be even increased waves 
of illegal immigrants coming across the border because the 
charlatans who are giving illegal aliens cheap jobs will 
continue to break the law. And that's why it's important to 
verify Social Security numbers and to increase the fines that 
people who are convicted of violating the employer sanctions 
law by hiring illegal immigrants high enough so that it 
actually acts as a deterrent rather than the cost of doing 
business.
    Now, there have been a lot of allegations that we 
introduced a bill and we passed it a week later, and we did 
that. But there were 61 separate Subcommittee hearings held 
during my Chairmanship, which began in January 2001 that gave 
us the data from public witnesses to find out what we needed to 
do to pass an effective employer sanctions and border security 
bill. And we've got to do that first. And if we don't do that 
first, then we're just going to make the same mistake of 
Simpson-Mazzoli all over again.
    Now, one of the things that I'm particularly interested in, 
Sheriff, and I do have a comment and a question of you before 
you and Mayor Antonovich have to go, is that in this House bill 
but not in the Senate bill there is a $100 million of aid to 
the sheriffs of the 29 border counties in four States to put 
more boots on the ground, to provide better equipment, better 
training and to arm them better.
    I know that you don't serve a county that is on the border. 
I think that what we're doing is a start. Does the Sheriff 
Association nationwide support the provision in the House bill 
for the $100 million in aid
    Sheriff Baca. Not directly, sir. It basically is saying 
reimbursement is required in order for them to be a participant 
in any enforcement program. So I would suspect that it's yes on 
the context that funding will be provided, and that's your 
particular provision is on the plus side of what the National 
Sheriffs' Association would require.
    Chairman Sensenbrenner. Okay. The second question that I 
have is that currently there is a provision in law which I 
admit needs to be clarified that says that local law 
enforcement can enforce all Federal immigration laws. The 
Senate bill weakens that so that local enforcement can only 
enforce that Federal immigration laws which are criminal in 
nature and not those including illegal presence in the country 
that is a civil forfeiture if one is convicted of that. Do you 
believe that the Senate bill weakening the power of local law 
enforcement is a set backward and that it takes away one of the 
tools that you have?
    Sheriff Baca. I think both bills on the question of local 
enforcement enforcement are in need of improvement. First of 
all, the National Sheriffs' Association and the Police Chiefs 
Association both do not believe that the laws of either Senator 
or congressional origin should say we're going to tell you you 
have to do this and we have no other option.
    Chairman Sensenbrenner. And neither of them do.
    Sheriff Baca. Correct. But enforcing those that enforce the 
law is a big part of success which comes to enforcing any law.
    Chairman Sensenbrenner. Okay.
    Sheriff Baca. And so the authority to go out and do this 
work is what's in dispute right now between both bills and 
those that are enforcing the law locally.
    Chairman Sensenbrenner. Okay.
    Sheriff Baca. So we need to kind of work on clearing that 
point up. And each police chief and each sheriff want the 
ability to decide up or down whether they're going to 
participate.
    Chairman Sensenbrenner. Okay.
    Sheriff Baca. They don't want a mandate coming down from 
the Federal Government on either side.
    Chairman Sensenbrenner. Okay. My time has expired.
    There are no mandates in either bill, but there are 
differences in powers.
    The gentleman from California, Mr. Bilbray.
    Mr. Bilbray. Thank you, Mr. Chairman, Mr. Chairman, I would 
thank you for allowing me to participate in this hearing, and 
I'd like to welcome you to my part of the world, San Diego. In 
fact, I was baptized about a 100 yards from this location and I 
guess it's been downhill for the church ever since.
    Mr. Chairman, I think your feelings about the Simpson-
Mazzoli that it was a failure is because you were thinking you 
were going to try to stop illegal immigration and try to 
encourage it. I'm sure that those that were looking forward to 
more illegal immigration thought it was a great success.
    Sheriff, I had the privilege of working for over 18 years 
in local government. And one of the greatest local, State 
Federal cooperative efforts I saw was in drug interdiction was 
a thing called asset forfeitures. Would you agree that that was 
a good partnership system at fighting drug activity?
    Sheriff Baca. Yes.
    Mr. Bilbray. Has anybody from the Sheriffs' Association or 
has anybody even talked about or do you have any comments about 
maybe we ought to be talking about doing the same thing with 
alien smugglers and the illegal immigration issue, and that is 
those assets that are involved in the alien trafficking 
business be confiscated and distributed to local governments 
just as we do with drug traffick?
    Sheriff Baca. Obviously whatever the assets are that are 
obtained because of someone committing crimes should not be 
allowed to be in the hands of those who committed the crime. So 
whether it's an asset forfeiture program or not, the assets 
should be removed from those people.
    Mr. Bilbray. My point is that if local government 
participates in drug activity and that confiscation occurs, you 
get what, 80 percent? You get a large percentage?
    Sheriff Baca. Yes. But where I have a little difficulty in 
the theory is that drug dealers deal in millions of dollars and 
I would have to say for what assets are you asking me to----
    Mr. Bilbray. I understand that. I think we're into 
racketeering and we're finding out that the traffickers in 
illegal immigration is not only in vehicles but also in real 
estate or whatever. I'm just looking at the fact that we have a 
model. It may not be as an effective a model, but it may be 
some reimbursement to law enforcement to law enforcement that 
doesn't exist now that's not being tapped appropriately. And 
I'm just trying to build on successes we've had in the past 
with cooperative efforts and maybe build a future cooperative 
effort.
    Sheriff Baca. It would be part of the solution.
    Mr. Bilbray. Mayor of the County of the great County of Los 
Angeles, how much money are we sending out on the children of 
illegal aliens, the----
    Mr. Antonovich. The children that are born here?
    Mr. Bilbray.--birth right citizenship?
    Mr. Antonovich. $276 million a year.
    Mr. Bilbray. Who is the check sent to?
    Mr. Antonovich. It's sent to the mother because the child 
is unable to write their name.
    Mr. Bilbray. In other words, if the mother is here and 
illegal, you are sending a check to an illegal alien present in 
the United States----
    Mr. Antonovich. Right. That's correct.
    Mr. Bilbray.--and you are giving--so in other words, is the 
check written out into the name of the child or is to the 
mother?
    Mr. Antonovich. I would--that I don't know. But the child 
is eligible for that check for the 18 years of their----
    Mr. Bilbray. Okay. I'm just asking because I don't know of 
other--where else in the process that we would as a Government 
knowingly give public funds to somebody we've identified that 
we're violating the law at the time. Can you clarify that?
    Mr. Antonovich. I understand that it's written out to the 
parent.
    Mr. Bilbray. To the parent? So it's sort of an interesting 
concept that the Federal Government is watching local 
government pay somebody who is illegally in the country. And I 
appreciate that. And I appreciate that information. I think 
it's a legitimate issue.
    Professor, your issue about the balance. I spent a lot of 
time in Latin America, too, about this wage scale. How much do 
we have to lower our wage scales or how far does Mexico have to 
raise it before this so called balance works out? Do we have to 
become third world or do they become first world? Somewhere 
down the line do they become more like America or we are going 
to become more a nation of a few rich and massive amounts of 
poor before it balances?
    Mr. Cornelius. Well, as you can see from the graph the main 
factor that has increased the wage gap over the last 20 or more 
years is the fact that U.S. income, U.S. wages have been going 
up faster than Mexico. If the experience of Europe is any 
guide, they reduce their wage differential between the northern 
European states and the southern European states by about half 
in the 1980's. And that was sufficient to essentially shut off 
immigration from countries like Spain, Italy and Greece.
    Chairman Sensenbrenner. Okay. The gentleman's time has 
expired.
    Two of our witnesses have to leave to get back to Los 
Angeles.
    I would like to thank all of the witnesses for coming. This 
has been a very useful hearing.
    Ms. Jackson Lee. I would like to add something to the 
record, Mr. Chairman.
    Chairman Sensenbrenner. Without objection, the gentlewoman 
may put something in the record.
    I'd like to thank the witnesses for appearing. Everybody 
has had the same amount of time to ask questions. And without 
objection, the hearing is adjourned.
    [Whereupon, the hearing adjourned at 3:43 p.m.]

                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

Prepared Statement of the Honorable Elton Gallegly, a Representative in 
  Congress from the State of California, and Member, Committee on the 
                               Judiciary

    Thank you for holding this important hearing, Mr. Chairman.
    Before we begin, it is important to keep in mind what this debate 
is about. It is about enforcing our laws. Until the United States 
returns to its foundation as a nation of immigrants AND a nation of 
laws, discussion about any other aspect of immigration reform is 
irrelevant.
    Here are some facts that demonstrate our lack of seriousness in 
terms of enforcing our immigration laws:

        <bullet>  The United States government is aware of over 10 
        million people working in our country with invalid social 
        security numbers, most of whom are here illegally. Yet, they 
        have taken no action against them, even though they know the 
        name, address and phone number of employees and employers.

        <bullet>  The state of California currently subsidizes 90 
        percent of the cost of college education for illegal immigrants 
        at state universities. This benefit, passed by our state 
        legislature, is denied to U.S. citizens who have lived out of 
        the state for just one year.

        <bullet>  The Los Angeles County Jail releases more than 21,000 
        criminals each year, the same day they are booked, because 
        there is no space available in the jail. This is caused by the 
        high number of illegal immigrants, estimated at 25 percent of 
        the jail population.

    For nearly 20 years, I have pushed the federal government to reduce 
the high number of illegal immigrants entering the United States. In 
1995, then-House Speaker Newt Gingrich appointed me the Chairman of the 
Congressional Task Force on Immigration Reform. This bi-partisan task 
force produced a 250-page white paper which contained more than 80 
specific recommendations on how to stop illegal immigration.
    Unfortunately, although many of the task force's recommendations 
were included in the 1996 Illegal Immigration Reform Act, we are still 
seeing record numbers of illegal immigrants entering our country, 
because our laws are not enforced, even though we have tripled our 
enforcement budget in the past ten years.
    The failure to secure our borders has been expensive. According to 
figures supplied by the Center for Immigration Studies (CIS), the net 
cost of providing government services to illegal immigrants is $3 
billion a year in California alone. CIS estimates this cost will 
increase significantly if the estimated 12 million illegal immigrants 
currently in our country are granted amnesty.
    In order to reduce illegal immigration, we need to take several 
common sense steps. The first step is to increase our presence along 
the border. We need to increase the number of beds available to hold 
illegal immigrants so that the Border Patrol does not simply arrest 
illegal immigrants and give them a notice to appear in court. We know 
that 96 percent never make their court appearance.
    Although increased interdiction at the border is important, we also 
need to recognize that illegal immigrants come here looking for work 
and benefits. If we stop illegal workers from finding and holding onto 
jobs, they will be far less likely to come here in the first place.
    We know what needs to be done to accomplish this. We need to make 
the Basic Pilot Program mandatory for all employers. We need to 
eliminate public housing and other benefits for illegal immigrants. We 
need to curb the use of matricula consular cards that make it easy for 
illegal immigrants to find work and open bank accounts.
    This helps provide the largest foreign aid program in the world in 
the form of remittances (money sent mainly by illegal immigrants back 
to Mexico), estimated to be in excess of $25 billion. Currently, it is 
a major source of revenue to the Mexican economy. It is no wonder 
Mexico is critical of any thing we do to stop illegal immigration
    We know what needs to be done to reduce illegal immigration, Mr. 
Chairman. All we need is the political will to do it.
    Mr. Chairman, thank you again for holding this hearing. I yield 
back my time.

                                 <all>

</pre></body></html>
